<html>
<title> - ELEVATING LOCAL VOICES AND PROMOTING TRANSPARENCY FOR A POTENTIAL MONUMENT DESIGNATION IN MAINE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
  ELEVATING LOCAL VOICES AND PROMOTING TRANSPARENCY FOR A POTENTIAL 
                     MONUMENT DESIGNATION IN MAINE

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

          Wednesday, June 1, 2016, in East Millinocket, Maine

                               __________

                           Serial No. 114-46

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
       
        
       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
          
          
                            _________ 
 
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-480 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   

          
          
          
          
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 1, 2016..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     7
        Prepared statement of....................................    11
    Poliquin, Hon. Bruce, a Representative in Congress from the 
      State of Maine.............................................     2
    Westerman, Hon. Bruce, a Representative in Congress from the 
      State of Arkansas..........................................     5

Statement of Witnesses:
    LePage, Hon. Paul, Governor of the State of Maine............    13
        Prepared statement of....................................    14
    Meyers, Bob, Executive Director, Maine Snowmobile 
      Association, Augusta, Maine................................    33
        Prepared statement of....................................    35
    Sannicandro, Paul, Councilman, Millinocket Town Council, 
      Millinocket, Maine.........................................    21
        Prepared statement of....................................    23
    Stanley, Stephen, Representative, District 143, Maine House 
      of Representatives, Medway, Maine..........................    16
        Prepared statement of....................................    18
    Trahan, David, Executive Director, Sportsman's Alliance of 
      Maine, Augusta, Maine......................................    36
        Prepared statement of....................................    38

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    50
                                     



   OVERSIGHT FIELD HEARING ON ELEVATING LOCAL VOICES AND PROMOTING 
       TRANSPARENCY FOR A POTENTIAL MONUMENT DESIGNATION IN MAINE

                              ----------                              


                        Wednesday, June 1, 2016

                     U.S. House of Representatives

                     Committee on Natural Resources

                        East Millinocket, Maine

                              ----------                              

    The committee met, pursuant to call, at 2:00 p.m., in the 
East Millinocket Town Office, 53 Main Street, East Millinocket, 
Maine, the Hon. Rob Bishop [Chairman of the Committee] 
presiding.
    Present: Representatives Bishop and Westerman.
    Also Present: Representative Poliquin.
    The Chairman. The committee hearing will come to order.
    We are functioning under the rules of the House of 
Representatives, so there are a couple of things we will talk 
about in a second to you.
    But we want to start this off with the Presentation of our 
Colors. To do that, I am going to ask if Representative 
Poliquin from this area will introduce the Color Guard, and 
then they will present the Colors to you.
    Mr. Poliquin, if you will introduce the Color Guard.
    Mr. Poliquin. Everyone stand, please, and thank you very 
much for presenting the Colors.
    [Colors.]
    [Pledge of Allegiance.]
    The Chairman. We would ask if the Color Guard would stay 
here for one second. Mr. Poliquin has a presentation for you.
    Mr. Poliquin. On behalf of my representation of the 2nd 
District of Maine in the U.S. House of Representatives, I would 
like to present to you this American flag that has been flown 
over the United States Capitol. Thank you very much.
    [Applause.]
    The Chairman. We would like to welcome all of you here to 
this hearing. By way of introduction, my name is Rob Bishop. I 
am the Chairman of the Natural Resources Committee in Congress. 
I hail from Utah, which is a desert.
    I am joined here by Bruce Westerman, who is from Arkansas, 
and Representative Bruce Poliquin, who is from your district. 
Because Representative Poliquin is not a member of our 
committee and this is a committee hearing, the first thing we 
need to do is ask unanimous consent to allow him to join us on 
the panel and participate in today's hearing.
    So, hearing no objection, that will be so ordered.
    I just want to go over a couple of the rules with you 
before we start. Since this is a House of Representatives 
hearing, we have a couple of rules.
    Under Committee Rule 4(f), we are all going to give an 
opening statement. Then we will get to the witnesses that we 
have here.
    We are also grateful that the governor of Maine has joined 
us and we will be asking him after those opening statements if 
he would like to do a 5-minute opening statement as well.
    Please realize the way we run this hearing is under House 
rules. I know some of you have brought signs. I don't want to 
see them. You can't hold them up. I would also ask you, whether 
you agree with what is being said or not, don't let me know 
about it.
    They each have 5 minutes. If your applause is in there 
because you like it, you are just taking away the time of those 
people being able to say something more that you might like as 
well. So, this is as if it were a hearing in the Capitol. There 
can be no demonstrations. There can be no signage. We just 
thank you for being here and participating in a quiet way.
    With that, I am going to yield my time for an opening 
statement to Representative Poliquin. This is still your 
district. I would like to recognize you for the first opening 
statement for 5 minutes, if you would.

   STATEMENT OF THE HON. BRUCE POLIQUIN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Poliquin. Thank you, Chairman Bishop, very much for 
this opportunity. I am very grateful that you responded 
positively to my invitation to you and your committee to hold 
this congressional field hearing.
    It is very rare to have a hearing outside of Washington, 
DC. This is an official, on-the-record congressional hearing. I 
believe, Mr. Chairman, there have only been two so far this 
year that have been held outside of Washington, DC.
    Mr. Bishop is the most experienced elected official in the 
U.S. Congress dealing with the issue that we are facing today, 
and I am going to be very eager to hear his comments on the 
important topic in front of us.
    To my immediate left is Congressman Bruce Westerman, who is 
here with his lovely wife, Sharon, on their 25th wedding 
anniversary. I thank you, Bruce, very much for coming up and 
participating in this process.
    I want to thank all of the witnesses that we have here 
today that will be testifying on the record about this issue.
    And I also want to thank Senator Angus King, who 
approximately 2 weeks ago brought up an individual, a very 
senior member of the Administration, a fellow by the name of 
Mr. Jon Jarvis, who runs the National Park Service. Mr. Jarvis 
works for the President of the United States. I do not. I work 
for 650,000 people who are hard-working that live in our 2nd 
district. They may be on one side of this issue or the other, 
but I represent all of them, and that is why I asked for this 
congressional hearing.
    I want to make sure that Congress, not the White House, 
hears loudly and clearly the opinions of the folks that live in 
the Katahdin region. It is very, very important to do that.
    I know this is a very passionate issue that has divided 
this community and the communities surrounding East 
Millinocket. I understand that. This is not a political issue 
for me. This is about our families. This is about our jobs. 
This is about the people that live in the Katahdin region and 
the people of the state of Maine. This is not about politics.
    Now, I have to make sure I mention this very clearly. In 
any congressional hearing, whether or not you are in Washington 
or a field hearing like this outside of Washington, Republicans 
and Democrats are always expected and invited to participate. 
Unfortunately, no Democrat has found this hearing important 
enough to participate on the committee.
    When it comes to our witnesses, Democrat witnesses, pro-
monument witnesses were asked to participate. They chose not 
to. We continued to reach out to them, including last night at 
dinner. They have chosen not to be witnesses here today.
    After this there will be a public forum where I am asking 
everybody to please weigh in, and hopefully there will be some 
folks that are pro-monument, folks that will speak up publicly 
after this congressional hearing.
    But I want to make this very clear: this is not a political 
issue. This is about our families, about our jobs, and about 
the people in the Katahdin region.
    During the past year, my office and I have met with dozens 
of individuals personally on both sides of this issue. We have 
responded to thousands of emails, letters, and phone calls. We 
have responded to every single one, to the best of my 
knowledge. We have done very thorough work to make sure we hear 
everybody, and this is an extension of that.
    Now, what I would like to do is recognize folks on my 
congressional staff, those on Senator King's staff, Senator 
Collins' staff, and Representative Chellie Pingree, who 
represents the 1st District of Maine.
    All those staffers who are here, please raise your hand.
    Let it be noted, Mr. Chairman, that there are 
representatives from the entire Maine delegation here. Thank 
you very much. Again, Republicans, Democrats, and Independents.
    At the beginning of this process, which for me was about a 
year ago, I made it very clear to everybody I talked to, I 
cannot and will not support any proposal that threatens our 
good-paying, full-time forest products jobs in the state of 
Maine. Right now we have about 33,000 to 34,000 good-paying 
forest products jobs in the state of Maine. We must make sure 
at all costs we protect those jobs.
    At the same time, I made it clear to everybody I have 
talked to, I will not support any proposal that threatens our 
outdoor way of life, or somehow, in some way, restricts our 
access to hunting, fishing, camping, hiking, and snowmobiling. 
That is very important, as is the relationship that we have as 
Mainers with our small number of very large private landowners. 
It is critical that we maintain that relationship and make sure 
we do not threaten our way of life and recreational jobs that 
come with that outdoor activity.
    Today, during this hearing, I am going to be asking our 
witnesses about a number of different issues. First of all, I 
am going to be asking about the economic impact study that was 
conducted by the owners of this property, asking them to 
justify the number of jobs that are promised by this proposal.
    The reason I am going to be asking that question is because 
the study is predicated on a fully developed tourist industry 
in this area, including restaurants and hotels, and so forth 
and so on. We need to make sure we get this right, and I want 
to hear what they have to say about it.
    I also want to understand why the folks that wrote the 
economic impact study guessed 10 to 15 percent of visitors from 
Acadia National Park would find their way to go to a national 
monument here. How did they come up with that number?
    I am also going to ask about the financing of this 
operation. This is a very big project. We have about 405 
national monuments, national parks, and recreation centers 
around the country. We are about $12 billion in arrears to 
maintain those properties--$12 billion. Acadia National Park, a 
few hours away, has a $69 million backlog to maintain that 
national park. So, we need to make sure the numbers work on 
this.
    And this morning, Congressman Westerman, myself, and others 
went out to our working forest near the town of Patten, not far 
from here, as we all know. We have very narrow logging roads 
that extend throughout our working forests. I need to make sure 
that a 260,000-pound logging truck traveling on a gravel road 
where the dust is flying can co-exist with a Subaru with a 
couple of kids in the back seat, a dog, and a canoe on the 
roof. We need to make sure that we get this right.
    A short time ago, Mr. Chairman, I was across the street 
having hot dogs with some nice folks who were very pro-national 
monument, and good for them for speaking up. And I asked them a 
very simple question. We have had here in the Katahdin region 
three referendums. These are actual votes in East Millinocket, 
Medway, and a couple of months ago in Patten, not a poll taken 
in a different part of the state by those that live in a 
different part of the state, but actual voting in the area. Why 
don't we have more of these to make sure we know how the people 
feel about this issue?
    But with that, I want to thank Chairman Bishop for coming 
to our great state of Maine. It is a wonderful place to live, 
to vacation, to move you and your wife here, Mr. Bishop. We 
have great lobster. We have great hunting. We have great moose, 
great bear, and this is a vacation spot that you will love, and 
I am sure you will consider that.
    With that, I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. You also have great sea 
urchins, right?
    Mr. Poliquin. Yes, we do.
    The Chairman. All right. I appreciate the comments.
    I understand, or am informed, that one of the expressions 
you have up here is that you consider me and Mr. Westerman here 
``awayers.'' I have not heard that before. I am sure it is a 
term of endearment.
    [Laughter.]
    The Chairman. But as you hear us speak, I am sure you are 
going to find out that Mr. Westerman sounds like a more awayer 
than I do. In fact, I think I am the only one in the room who 
does not have an accent right now.
    [Laughter.]
    The Chairman. But other than that, thank you for being 
here.
    I would like to turn to Mr. Westerman, if we would, for his 
opening statement.

  STATEMENT OF THE HON. BRUCE WESTERMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Westerman. Thank you, Mr. Chairman. And thank you to 
the other Bruce in Congress for hosting us here today and for 
having this important hearing.
    As my friend, Bruce Poliquin, said, this is my 25th wedding 
anniversary. About 45 minutes from now, to be exact, is when my 
wife Sharon and I were married.
    [Applause.]
    Mr. Westerman. It is great to get to celebrate here in 
Maine. My wife actually has connections with Maine. Her father 
grew up in Stockton Springs, so we are not unfamiliar with 
Maine. I have been here several times, to Acadia and all along 
the coast. I have been here in Millinocket before. It is always 
a pleasure to be back here and to see your beautiful state.
    As I look at this issue today, I look at it from two 
different perspectives. Number one as a Congressman, and my job 
there is representing the 4th District of Arkansas; and also 
from a professional perspective, because I am the only forester 
in the whole House or Senate. So I look at it from that 
perspective as well.
    But as a Congressman, when I look at the state of Maine and 
my district, there are a lot of similarities. Maine is 90 
percent forested. My congressional district is 86 percent 
forested. Forest products is a huge business in my district. A 
lot of people's livelihoods depend on that, both in the forest 
products business and also in outdoor recreation.
    We have a lot more Federal land in my district, about 2 
million acres of national forest and Fish and Wildlife Service 
land. My hometown of Hot Springs, Arkansas is actually the 
first land set aside by the Federal Government that later 
became a national park; so I am familiar with national parks 
from that perspective. And serving on the Natural Resources 
Committee, I get to hear a lot about our parks, our forests, 
and all of our Federal lands across the country.
    One of the things that is alarming to me, especially in my 
hometown of Hot Springs, Arkansas, is that we have one of the 
smallest national parks and we have a $12 million backlog on 
maintenance and operations there in that park. But that pales 
in comparison to the $11.8 billion of backlog in maintenance 
and operations across the country. As Representative Poliquin 
already mentioned, just up the road here there is a $68 million 
backlog at Acadia.
    So, when we also look at the fact that the Federal 
Government owns a third of our country, which is more than the 
British government owns of the United Kingdom, my first 
reaction as a Congressman is do we really need more Federal 
land? Do we not already have enough Federal land in enough 
places set aside? And how would we ever pay for it and manage 
it properly if we were to accumulate more land?
    Then I switch gears a little bit and look at it from a 
forestry perspective. I try to look at things through the lens 
of, number one, are the actions we are taking compassionate and 
are they fair? I think we need to think about that regardless 
of the issue. I am thousands of miles away from here, where my 
district is, but I still want what the Federal Government does 
to be compassionate and fair to the folks here in Maine. Is 
creating more Federal land a compassionate thing? Is it a fair 
thing? As we would say in Arkansas, I really don't have a dog 
in the hunt other than I am a Member of Congress that has a say 
in what happens with Federal lands.
    When we look at this from a forestry perspective, and I am 
a huge proponent of healthy forests, there is no downside to a 
healthy forest. If we have a healthy forest, we have better air 
quality, we have better water quality, we have better wildlife 
habitat, we have better recreational opportunities, and we have 
a better economy. There are no downsides to a healthy forest. 
If you are worried about carbon in the atmosphere, a healthy 
forest sequesters carbon. A young, healthy forest does it at a 
higher rate than an old, stagnated forest.
    Forests are living, dynamic organisms, and when Teddy 
Roosevelt and Gifford Pinchot worked together to set aside the 
national forests, they set them aside in the name of 
conservation and stewardship, to have these Federal lands there 
for future generations, so that we would have all the multiple 
uses that the forests provide, they would be sustainable, and 
it would be a matter of conservation.
    We have this mixed-up idea in the Federal Government 
anymore where we confuse this preservation with conservation. 
To preserve something, you have to basically kill it. You 
cannot preserve something that is living. You can take a 
cucumber and pickle it and put it in a jar and you have 
preserved it, but you cannot pickle a forest, because 
regardless of what laws we make in Washington, DC, and 
regardless of what laws are made here on the state level, the 
forests don't care. The trees don't listen. They have one 
purpose. They grow and they fill the growing space. When they 
fill that growing space up, they start competing with each 
other. They get stressed. They are subject to disease and 
insect infestation, and they are subject to wildfires.
    So, to be a good steward and to conserve our resources, we 
have to manage those resources. My concern is when I look 
across the country at the track record of the Federal 
Government in forestry management and stewardship, it is not 
very good. You can look out west with our lands that are 
managed by the Department of the Interior, or by the Forest 
Service. They are adjacent to private lands. They are adjacent 
to tribal lands. And by every measurable metric, the lands that 
the Federal Government manages, not just the Forest Service, 
the National Park Service included, fall below the standard 
that is done on private and tribal lands.
    So, it is hard for me to understand why we are going to 
take land that is a working forest and cede all the rights to 
manage that land to the Federal Government, which does not have 
a very good track record of managing that land in the first 
place. And in the end, I am afraid you will end up with not as 
good a natural resource as what you had to start with.
    We think we can have what are called collaborative efforts 
where the communities get together and they come up with a plan 
to manage the forest, which is a great idea. It happens in my 
state. All the stakeholders sit down at the table with the 
Federal agency. They come up with a collaborative plan. They 
follow that management plan almost to the T, and they get held 
up in court in a Federal lawsuit. At the end of the day, no 
management takes place.
    Even though you may think you are going to have a seat at 
the table on how this land is managed and what is done with it 
in the future, reality shows that you will not. And once you 
give those rights up and the Federal Government gets that, it 
is very, very hard to take them back.
    The President can do what the President wants to do. He has 
executive authority to create a monument without the blessing 
of Congress. I hope he does not do that. I hope he looks at the 
facts and I hope that they make a decision based on sound 
science and on what is best, what is most compassionate, and 
what is most fair to the people it is going to affect.
    I am glad we are having this hearing today so we can get 
some of the information out in the open. I look forward to 
hearing from the Governor and the other witnesses. I yield 
back, Mr. Chairman.
    The Chairman. Thank you, Bruce, and Bruce.
    Let me do two other things of housekeeping here.
    First of all, you can see we have a lot of microphones up 
here. Apparently, these are all fake. They are for the 
stenographer and some of the media. They are not real 
microphones. We are going to have to pass the microphone 
around, so that is going to be somewhat cumbersome.
    Also, for those of you who wish to make a comment, there 
are some comment sheets in the back of the room. If you would 
like to fill those out, those will also be made part of the 
official record of this hearing, so just avail yourself of that 
opportunity. Our staff will pick them up after we are done. But 
there is the ability for you to make comments back there.
    Let me say a word just at the beginning of this one.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The reason we are here is to try and gain some kind of 
local input into this particular issue. It is not necessarily 
that the Administration won't. In some respect they can't. If 
they actually do have too much input, then it triggers the need 
for process, and they would have to do NEPA if they did.
    But nonetheless, everyone is always going to be impacted by 
these decisions one way or the other. So, even though I don't 
live here, I will still be impacted if indeed a monument is 
made here. That is because we have, as has been mentioned, a 
$12 billion maintenance backlog in the National Park Service by 
itself, and $19 billion in the entire land owned by the 
Department of the Interior. So, even if free land were given, 
it ain't free. There is still going to be a cost for the 
management and the ownership of that, and that comes out of my 
constituents' pockets and Mr. Westerman's constituents' 
pockets, as well as your pockets here in Mr. Poliquin's 
district. That becomes significant.
    Let me just go through a couple of the experiences that I 
have had in the state of Utah with the idea of national 
monuments. In the waning days of the first term of the Clinton 
administration, President Clinton, who was running for re-
election, established the Grand Staircase-Escalante National 
Monument in Utah. That is a national monument that is about 2 
million acres, or 3,000 square miles. The three smallest states 
in the Nation do not equal that size. That was made by the 
stroke of a pen.
    The problem was there was nobody in Utah who supported it, 
either the delegation, or the Governor, or the legislature, or 
anyone who lived in the area. It was just simply done. In fact, 
the White House told the Governor and the delegation the night 
before they made the announcement of the monument, ``Don't 
worry about it; there will be no monument that is going to be 
made.'' It didn't necessarily happen that way.
    They also said, and this is over 20 years ago, that there 
would be certain deals that would be made to maintain grazing 
rights, road right-of-ways, and hunting and fishing 
opportunities. We are still fighting over all those issues 20 
years later because we did not do it the right way, which is to 
get the input first and then figure out how the management plan 
would be done. Instead, they established the national monument 
and then said we will work out the management. It does not 
necessarily work that way.
    So, if some people think you can establish a national 
monument by presidential decree that will have forest 
management, the Forest Service can do that, but the National 
Park Service cannot. You think you are going to have logging in 
there; the National Park Service does not do that. If you 
actually think there is going to be access through that area, 
already the National Park Service closes roads even if they are 
public rights-of-way, state roads, and local roads. They close 
them if they go through the park and it takes an Act of 
Congress to actually change that. Already we had one this last 
month. We did another one in the state of Pennsylvania to say 
the National Park Service had to open up a road that ran 
through National Park Service property. So, access is a 
significant problem.
    All of those things have to be done, if you are smart, in 
writing before you actually declare anything. If you do not do 
that, you are going to find the same problem that we have in 
Utah. We have a loss of productivity with that national 
monument. It affects grazing families most significantly, but 
it also affects schools in our area. In Utah, we do have in-
state trust land that funds the public school system. The chief 
of staff of the Administration the night before he made the 
announcement didn't know what state trust land was, and 20 
years later we are still fighting over what those state trust 
lands will be, who will get access to them, and how they can be 
used to help fund kids education in Utah.
    In fact, the local school district where this national 
monument is now stationed is thinking of closing down some 
necessary small existing schools there simply because the 
population is depleted in that particular area. There are no 
jobs around that area. Although, I still get surveys being 
done, some by an institution that has already given you a 
preliminary study of how much this would generate for you. They 
did the same thing in mine which said that national monument is 
creating the bucks for us in Utah. There is no one who lives in 
that area who can find where those bucks are or where those 
jobs may happen.
    So, it is not that it can't be done, but if you are going 
to do it, do it the right way, which is why Congress should be 
the ones who do this so you can have the open hearings, you can 
go about it in a realistic process, and you can answer the 
questions ahead of time, not after the fact. That is one of the 
problems we have and one of the reasons we are trying to have 
this hearing, so we can try and open this process up in a more 
public way.
    When we get done here, I am going down to Massachusetts, to 
New Bedford. It is the same issue, a proposed national monument 
down there, except this time you are dealing with fish off the 
coast in which, once again, the delegation and the governor of 
Massachusetts have written a letter to the President saying 
please do not do this now, let's have some input first. That is 
coming from the opposite party. My state is all Republican. We 
are asking the President not to do another one in my state 
unless you have the input first. You have both Republicans and 
Democrats here in Maine that I think are saying let's make sure 
we have the input first. That is what we are attempting to do 
with this particular meeting, which is why I am somewhat 
perplexed by some of the statements that I heard before we came 
up here about what this hearing is or is not.
    This is a congressional hearing. It is not a debate. Mr. 
Poliquin will be holding a town hall meeting afterwards. The 
Governor will have a town hall meeting today. That is where 
everyone has the opportunity of actually expressing something. 
In these meetings, we invite people from different groups to 
come and tell us what the impact will be for that particular 
group.
    I admit, there is no Democrat that is here today. I don't 
know why, to be honest with you. This is the first time they 
have chosen not to attend one of these hearings or not to 
specifically send a witness. We also gave out certain 
invitations to those who are openly in favor of the national 
monument here. They chose not to attend. I don't have a window 
to their heart or their soul. I don't know why. That is just 
the realization it is. But that is OK because if you are saying 
we are stacking this meeting, that is just not right. If you 
are saying I am anti-national monument, no, not really. I 
actually have a piece of legislation in my state to create a 
new national monument. I just want to do it the right way, with 
Congress doing it, so these questions are done ahead of time 
and not fighting over it 20 years later because, I am sorry, 
but people from my personal experience have been harmed when a 
national monument is done without proper background and 
understanding exactly what the impact will be on them. That is 
why I want to make sure we do it this way, so that people have 
the chance to have their input so they are not going to be 
over-run or squashed by the heavy hand of the Federal 
Government in some particular way.
    If you have concerns, not necessarily about the 
establishment, but about how it will be organized, I think you 
are wise to have those concerns as you look toward the future. 
The Antiquities Act was passed in 1906. Please realize, when 
that was passed, there was no Bureau of Land Management and 
there was no National Park Service. There were only 45 states 
over 100 years ago and there were no environmental laws. It was 
passed to give the President the ability of designating land if 
it met three specific criteria. Number one, it had to be the 
smallest footprint possible, so you had to give options. Number 
two, there had to be some identifiable archeological, 
historical, geographical, or geological feature that you were 
trying to preserve, something specific. And number three, it 
had to be in danger of being destroyed.
    Those three criteria have not been done by the past three 
administrations. Instead they have said, ``Well, we will do 
something if there seems to be local support for it.'' We have 
some concerns here because, quite frankly, there has been no 
legislation that has been introduced. Some elected officials 
are antagonistic, some are negative, some are skeptical, some 
are just ducking the issue, and some maybe have some quasi-
support for it. We are coming up all over the place. These 
types of issues should be discussed openly ahead of time.
    As we said before, we have a situation where there is a $12 
billion maintenance backlog in the National Park Service. There 
is a $19 trillion debt. The Federal Government owns 640 million 
acres of land; that is one-third of all of America. They do a 
poor job managing the land and it is not because the people in 
Washington are malevolent or incompetent. They just have too 
damn much land to manage. That is why local management of the 
land usually is the one that produces the best.
    My state has five national parks. I wanted to create one 
national monument into the sixth national park in Utah. The 
people who live in that area became ballistic because they have 
had such a difficult time in dealing with the national monument 
management that they did not want to escalate it to have to try 
to deal with the National Park Service management at the same 
time. I still thought it was a good idea.
    I want you to know that even though there are six wonderful 
areas for visiting in Utah, the best park in Utah is still the 
State Park down in Kane County, which has been listed in 
magazines as probably the premiere park to visit and to 
recreate in, and it is done by state. States have equal ability 
of maintaining and coordinating this, so if you all want 
conservation up here, fine. Designation just for the sake of 
designating it as something really does not have a lot of 
background or a lot of sense with it.
    Land management decisions at any level should be developed 
with transparency through local collaboration, not done 
unilaterally, period. This hearing is one more way to ensure 
that local voices in this region are going to be heard. So, we 
are here today to listen to the views of local people and some 
of the individuals who represent them, because I think it is 
significant and important. If the President uses the 
Antiquities Act, he by law cannot engage in that process. As 
soon as he involves the Interior Department or anyone else in 
the planning, NEPA kicks in and you have to have public 
hearings. The Antiquities Act is used as a gotcha moment to 
surprise people with the President acting boldly and 
decisively, and in doing so he cuts out the voice of people. 
That is why we are here, to make sure that whatever decision is 
made, that all of you here have a say in what it is, and that 
becomes the driving factor, not just the desire to say, ``I 
created something, wow, isn't that cool.''
    With that, I appreciate your attendance here, and I 
appreciate your attendance afterwards in the meetings that you 
are going to be holding.
    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    I want to thank Representative Poliquin for bringing this issue to 
my attention and inviting me here today to consider local views of the 
proposed national monument. I also want to thank Mr. Westerman for 
traveling all the way from Arkansas to be here.
    I have been informed that Mr. Westerman and I are considered 
``Awayers''--I have never heard that term before, but I think it must 
be a term of endearment.
    I want the audience to know that we have comment sheets you can 
fill out that will be part of the official record and we will make all 
of the comments during the listening session part of the official 
hearing record as well.
                experience with national monuments--utah
    Coming from Utah, I unfortunately have a lot of experience with 
national monument designations. In the waning days of the Clinton 
administration, President Clinton designated the Grand Staircase-
Escalante National Monument.
    This designation locked up 1,880,000 acres. That's 2,938 square 
miles of Utah. This was designated with little to no public outreach 
and virtually no local support. The designation was opposed by the 
congressional delegation and the governor. The Utah delegation is still 
trying to un-do what was done by the stroke of pen almost 20 years ago.
    Most disturbing was the loss of productivity of the land--ranching 
families have been hit hard by a reduction in livestock allowed to 
graze on the monument. Thousands of acres of Utah State land--set aside 
to support schools in Utah--is still locked up in the designation and 
provides no revenue for public education.
    These are real consequences that impact the day-to-day lives of 
good, hard-working Americans trying to provide for their families and 
obtain the American dream. Yet a stroke of the pen, made from a fancy 
office in Washington, DC, completely changed the lives of these 
Americans.
    Now, President Obama is currently considering the designation of a 
new national monument in Utah. Similar to what I hear is happening 
here, the Administration promises an ``open, public process''--but 
unfortunately, I know better than to take them at their word.
    That's why Mr. Westerman and I are here today. After I leave Maine, 
I am heading to another community, New Bedford, Massachusetts, which, 
unfortunately, is also under the threat of a national monument 
designation. There, just like here, Utah, and so many other 
communities, people are concerned and worried about their future.
    There have been a lot of recent inaccurate public statements made 
about this hearing, so I'd like to set the record straight on a number 
of items:

    <bullet> This hearing is being held in accordance with the Rules of 
            the House of Representatives--it is an official 
            congressional hearing and, like it or not, we must abide by 
            the Rules of the House of Representatives and the Natural 
            Resources Committee just like a town meeting must abide by 
            its rules.

    <bullet> The minority, otherwise known as the Democrat Members of 
            the Natural Resources Committee, were all invited to attend 
            this hearing. They were also given the opportunity to 
            suggest witnesses with different points of view. They 
            declined both opportunities.

    <bullet> We went ahead and invited some folks that supported the 
            Monument designation--including Lucas St. Clair--who also 
            declined our offer.

    <bullet> After all of these efforts, it is disappointing to hear 
            accusations of stacking the panel to one that is opposed to 
            a Monument--but in truth, I believe our panel represents 
            bipartisan local voices--just as our hearing name states.

    <bullet> I also have never been, and don't now claim to be unbiased 
            about National Monument designations declared by this or 
            any other President. This is because I've had personal 
            experience with them and I have seen the livelihood of 
            families harmed by these designations.

    <bullet> I will not sit before you today and pretend that if the 
            President declares the Maine North Woods a National 
            Monument that everything will be OK and life here will be 
            hunky dory. I have serious concerns based on my experience 
            with numerous national monument designations in the West--
            you are wise to be concerned about your future.

    <bullet> Finally, what's probably the most disgusting part of the 
            situation with the Maine North Woods is the way its 
            proponents have tried to skirt Congress to create a 
            National Monument without the support of the entire 
            delegation, legislature and Governor.

    <bullet> Elected officials are held accountable by the electorate. 
            If I (or any elected official) do a bad job, I get fired in 
            November. But the people making the decisions on 
            designating national monuments are unelected bureaucrats 
            presenting their case to a lame duck President.

    <bullet> Mainers and New Englanders in general are used to being 
            part of the political process--the Town Meeting is one of 
            the purest forms of direct democracy. I believe that's why 
            this the Maine Woods proposal is so divisive--many Mainers 
            feel they have no say in the ultimate decision made by the 
            President. Sadly, through my experience in Utah, I know 
            this to be true.

             antiquities act versus national park creation
    Under the Antiquities Act of 1906, which was originally intended to 
prevent looting of archaeological and Native American structures and 
objects, the President can unilaterally declare national monuments of 
arbitrary size and scope, without congressional approval or input from 
states.
    The Act can only be used to designate a national monument--it 
CANNOT be used to create a national park. Only Congress has the 
authority to create national parks.
    Even if President Obama designated the North Woods area as a 
national monument, Congress--both the House and Senate--would have to 
pass a bill making it a national park and that bill would have to be 
signed by the President.
    To date, not a single piece of legislation has even been introduced 
in Congress--not even legislation to study the feasibility of a Park in 
this area.
                       reality versus lofty goals
    We must seriously ask ourselves if it is wise and prudent to 
designate yet another national park.
    The National Park Service has a $12 BILLION dollar maintenance 
backlog. Adding a new park that has no infrastructure whatsoever would 
only significantly add to this problem.
    The United States is $19 TRILLION dollars in debt. We should take 
care of the Parks we already have in poor condition rather than adding 
to the huge backlog.
    The Federal Government already owns 640 MILLION acres of the United 
States and by and large does a poor job managing this land.
    As I've said before, it's not because the land management agencies 
are filled with bad people: it's just too much land to manage. State 
and local governments ought to manage these lands.
    Setting all this aside, if a community and its congressional and 
local representatives are in favor of a new national park designation, 
then that proposal should be considered through the established 
legislative process that is designed to incorporate local input.
    Land management decisions at any level should be developed with 
transparency and through local collaboration, not unilaterally. The 
hearing is one more way to ensure more local voices of the Katahdin 
region are heard. We are here today to listen to the views of locals 
and some of the individuals that represent them.

                                 ______
                                 

    The Chairman. I would like to recognize the governor of the 
state of Maine, the Honorable Paul LePage. We appreciate you 
coming here and being with us. As always, any written testimony 
you have will also be included in the record, but now I would 
like to recognize you for the public statement you would like 
to make on this particular issue.
    Governor, it is all yours.

  STATEMENT OF THE HON. PAUL LePAGE, GOVERNOR OF THE STATE OF 
                             MAINE

    Governor LePage. Thank you so much. It is a pleasure to be 
here. Chairman Bishop, Congressman Westerman, thank you for the 
opportunity to address the House Committee on Natural 
Resources.
    Let me begin by welcoming you to Maine. I believe Maine is 
the most beautiful state in the Union. I know you might 
challenge that, but I win because it is my house.
    [Laughter.]
    Governor LePage. I sincerely appreciate the committee's 
consideration of the Antiquities Act and this proposed 
designation in Maine. It is through meetings like this, and not 
rallies, where we bus in supporters from around the state or 
out of state, that is the real opportunity for the people of 
Maine, Mainers, who will be affected by the national monument 
designation.
    I have been a vocal critic of a national park in northern 
Maine for many, many years, and now the national monument. I am 
proud to say I am a Mainer, born and raised, and have spent 
much of my career in forest products and understand the forest, 
while I am not a forester.
    The residents of East Millinocket, Medway, and Patten have 
voted very strongly in opposition of Federal control of this 
area. I have heard supporters from southern Maine dismissing 
this local opposition saying it is common with any Federal 
designation. However, the opposition here is real. The 
opposition here, of Maine people, they are people that live in 
the area in which people criticize.
    Mainers have battled proposals for Federal control of this 
region for over 25 years. In an interview with Forest Magazine, 
Roxanne Quimby called the Mainers old, obese, drug abusers, and 
dependent on welfare. Shame on her. Shame on her and her 
family. I really resent that.
    There has been much distrust that has been building on this 
whole issue. There is also opposition to this proposal on the 
state level. In 2011, the Maine legislature adopted a joint 
resolution opposed to the creation of a national park. This 
year, the legislature enacted legislation, which I proposed, to 
withdraw the state's consent for exclusive Federal jurisdiction 
over a national monument in Maine.
    But the owners won't quit. They have put millions of 
dollars on lobbying, focus groups, and polling in an effort to 
convince one man, the President of the United States, that this 
cut-over wood lot is worthy of being a national monument, while 
it sits right beside one of the best jewels and the best assets 
the state of Maine has, Baxter State Park.
    I agree with the Congressman that the states can have 
everything that the Federal Government says they can do for 
you. This is a good case study for reforming the Antiquities 
Act. The law should require some local or statewide support for 
the national monument designation. The way it stands now, there 
is really no way to check the President's power by the people 
who will be affected.
    This proposal does not square with a plain reading of the 
Antiquities Act. It was intended to preserve threatened areas 
and artifacts in the smallest area compatible with this 
purpose. This proposal calls for 90,000 acres of land to be put 
under Federal control to preserve Maine timberland, even though 
it is already under conservation and has been cut over.
    I have said repeatedly that we would happily support this 
project if it was part of the state public land system and we 
could do some research on our forest for the future generations 
and for those who live in this region.
    There is no threat to this land. The real threat is in the 
situation from an ambitious wealthy family seeking to create 
its own legacy.
    You know, in Maine, we have a legacy and a way of life in 
this region. It is hunting, fishing, hiking, snowmobiling in 
the winter, and outdoor sports. It will go away, make no 
mistake about it, and let me give you two examples.
    When the Federal Government shut down a few years ago, many 
of our fishermen were not able to go to work because they had 
to go across Federal lands to get to the shores and they were 
prevented from going to work. I got a call from the National 
Forest Service one day a few years ago saying you have some 
people in a cottage up on the Appalachian Trail and they are 
going across the Trail because the lake is not frozen yet. It 
was in December, and they said you need to go summons them. And 
I did say this, and I know they were offended, I said, ``No, I 
will not summons them, and if you come to Maine, I will summons 
you because those people are just trying to go snowmobiling and 
the lake hasn't frozen.'' They were going over a strip of land 
about 8 feet with snow on it, and the Federal Government said 
it is not possible.
    Well, that is what happens when you go to one-size-fits-all 
with the Federal Government taking control of your lives. I 
believe that this land is in Maine, and the Maine people ought 
to make the decision on how we are going to preserve it, how we 
are going to conserve it, and how we are going to use it.
    I agree with the Congressman: preservation is pickling, and 
I am sure that most Mainers do not want to pickle this land.
    So, thank you for being here. Thank you for inviting me to 
testify. I will work with the committee in any way we can to 
get you all the information that you need on this issue. Thank 
you.
    [The prepared statement of Mr. LePage follows:]
Prepared Statement of the Hon. Paul R. LePage, Governor, State of Maine
    Chairman Bishop and Congressman Westerman, thank you for this 
opportunity to address the House Committee on Natural Resources. Let me 
begin by welcoming the committee to northern Maine. I sincerely 
appreciate the committee's thoughtful consideration of the Antiquities 
Act in general and this specific proposed designation in Maine. It is 
through meetings like this--not rallies with bussed-in supporters--that 
you have a real opportunity to hear from the Mainers who would be 
affected by this National Monument designation.
    I have been a vocal critic of a National Park in northern Maine for 
a long time and now a National Monument. I am proud to say I have some 
good company in opposing this proposal. As this committee knows, the 
residents of East Millinocket, Medway, and Patten have all voted 
strongly in opposition to Federal control in this area. I have heard 
supporters from southern Maine dismiss this local opposition, saying 
that it is common with any Federal designation. The opposition in this 
area, however, is something more than that. Mainers have battled 
proposals for Federal control of this region for more than 25 years. In 
an interview with Forbes Magazine, Roxanne Quimby called these Mainers 
old, obese, drug abusers and dependent on welfare. There is plenty of 
mistrust that has built up over the years.
    There is also opposition to this proposal on the state level. In 
2011, the Maine Legislature adopted a Joint Resolution opposed to the 
creation of a National Park. This year, the Legislature enacted 
legislation--which I proposed--to withdraw the state's consent for 
exclusive Federal jurisdiction over a National Monument in Maine.
    The Quimby family, however, will not quit. They have spent millions 
of dollars on lobbying, focus groups and polling in an effort to 
convince one man--the President--that this cut-over woodlot is worthy 
of being a National Monument. This is a good case study for reforming 
the Antiquities Act. The law should require some local or state-wide 
support for a National Monument designation. The way the law stands 
now, however, there is really no way to check the President's power by 
the people who would be affected.
    This proposal also does not square with a plain reading of the 
Antiquities Act. It was intended to preserve threatened areas and 
artifacts in the smallest area compatible with this purpose. This 
proposal calls for 900,000 acres of land to be put under Federal 
control to preserve Maine timberland--even though it is already under 
conservation and has been cut-over. I have said repeatedly that I would 
happily accept this property to be included in the state's public lands 
system. There is no threat to this land. The real threat in this 
situation is from the ambition of a wealthy family seeking to create a 
legacy.
    Again, thank you for traveling to Maine to hold this hearing. I 
strongly support a frank examination of the Antiquities Act. I will 
support the work of your committee, including calling on the entire 
Maine delegation to support limiting abuses of this law.

                                 ______
                                 

    The Chairman. Thank you, Governor LePage. I appreciate you 
being with us and your testimony. As I said, if you want to 
have anything written added to the record, we will be happy to 
do that. With that, we appreciate you and realize you have a 
busy schedule, so thank you for stopping by.
    At this time, I think we need to bring up the gentleman who 
will be on the second panel, if we could. If you would come up 
here and join us at this table.
    Mr. Stephen Stanley is a member of the House of 
Representatives from this area. Come join us on this panel.
    Mr. Paul Sannicandro, I understand has a great deal of 
experience on land management, land issues, and is also on the 
Town Council.
    Mr. Bob Meyers, from the Maine Snowmobile Association, I 
appreciate having you here.
    Mr. David Trahan, from the Sportsman's Alliance of Maine.
    We appreciate having you gentlemen here. Once again, you 
come from a diversified aspect. We want to give you the 
opportunity of telling us what the impact of this potential 
designation would be.
    At this point, once again, anything that you have written 
for the record is included. The oral statements are limited by 
our Rule 4(a) to 5 minutes. There will be a timer in front of 
you to help you deal with that. Also, any questions we ask will 
be limited to 5 minutes. When the light is green, that means 
you have plenty of time, keep going. As soon as it turns 
yellow, just do what you do when you are driving, go real fast. 
And when it is red, please stop at that point.
    With that, we will recognize Mr. Stanley. I understand you 
are the Representative from the 143rd District here in Maine, 
and I understand you are from the wrong political party, but we 
can work on that later on, if that is OK.
    We thank you for joining us. You are recognized for 5 
minutes for your statement.

  STATEMENT OF STEPHEN STANLEY, REPRESENTATIVE, DISTRICT 143, 
         MAINE HOUSE OF REPRESENTATIVES, MEDWAY, MAINE

    Mr. Stanley. Thank you, Congressman Bishop and Congressman 
Poliquin, for being here. I want to welcome you to the Katahdin 
area, a very beautiful place to live and a beautiful place to 
work, if you have a job.
    My name is Stephen S. Stanley, and I represent Millinocket, 
East Millinocket, Medway, Patten and the nearby unorganized 
townships in the Maine House of Representatives. I am currently 
serving my sixth term in the Maine legislature, having 
previously served four terms in the House and one in the 
Senate.
    A majority of people in my district and the surrounding 
region are opposed to a national monument or national park. 
Earlier this year, the people of Patten voted by a roughly 2-
to-1 margin to oppose the formation of either a national 
monument or national park in the Katahdin region. Last year, 
both Medway and East Millinocket voted by similar overwhelming 
margins to reject the same proposal.
    During the session that recently ended, the Maine 
legislature reaffirmed what the people of the Katahdin region 
have made clear. Maine lawmakers approved Public Law 458, also 
known as LD 1600, which the Governor introduced and I 
sponsored. In its final form, the measure specifies that the 
legislature does not give its consent in cases of the Federal 
Government acquiring land for the designation of the property 
as a national monument.
    Numerous and varied concerns have led the majority of local 
residents, as well as many people outside our area, to oppose 
moving forward with the proposed national monument or national 
park. I am submitting this testimony to give voice to the 
concerns my constituents have raised, which I share.
    One of the greatest concerns is how a national monument or 
national park would impact our region economically. Though 
proponents tout the potential gains, there are serious 
questions around whether a national monument or national park 
would be the economic driver they claim it would be.
    The forest products industry is critical to Maine's 
economy, and this proposal would do serious harm to the 
industry. It would take tens of thousands of acres of 
productive woodland out of play. Creating a national park or 
national monument could have detrimental consequences on wood 
supply and mills across the state. Papermaking jobs are vital 
to the economic health of working families and communities 
around Maine, and there are many concerns about the effect that 
it may have on the paper industry.
    There are other questions around the dampening effect a 
national monument or national park could have on our region. 
Would industry-related emissions be held to a higher standard 
near the proposed national monument or national park? How would 
that impact businesses in the region?
    Proponents counter that hundreds of jobs could be created 
to replace the jobs in our legacy industries. However, when we 
look at the example that Baxter State Park provides, it seems 
unlikely that these estimates are realistic. Beyond that, these 
jobs would be low-paying and largely seasonal.
    In an area that has been devastated by the loss of more 
than 2,000 good-paying jobs in the past 10 years, replacing 
good-paying, year-round forest products jobs with these tourism 
jobs is not a good solution for the Katahdin region.
    Right now, there is a lot of economic uncertainty in our 
area as plans are discussed to create a national park. 
Businesses do not want to locate to our area, and there is a 
lot of panic about what may occur if a national park is 
created.
    There are legitimate questions around whether the proposal 
would even bring the suggested number of tourists to our region 
each year. While our region is beautiful and special, it does 
not have a unique feature like the Grand Canyon or the geysers 
at Yellowstone. It cannot be compared directly to Acadia 
National Park, which is a very different place in a very 
different part of Maine.
    But let's assume for a moment that the tourists would come 
in these numbers. The region lacks the infrastructure to 
accommodate so many visitors each year, and we have yet to see 
any reasonable explanation or plan for how that infrastructure 
will be created.
    It also seems that the type of visitor attracted to our 
region will be different from the visitors that bring economic 
activity to the area surrounding Acadia National Park. Bar 
Harbor and nearby communities are shopping and dining 
destinations with hotels and many other attractions. Here we 
have productive forestland. It can be enjoyed, but it would 
likely be by people who are prepared for an outdoor experience, 
not a shopping and dining experience.
    Another great concern is whether or not there will be any 
local control. We have managed and operated the Maine woods for 
many years now and we know the ins and outs of the area. Many 
people in my area are concerned that if the national monument 
is established, nobody in Maine will have a say in the 
rulemaking.
    Historically, we in northern Maine have had access to this 
land. The woods in our area that were owned and operated by 
paper companies were able to be used for other recreational 
activities such as hunting, fishing, and snowmobiling as well. 
A national monument would limit access to land we have used all 
our lives.
    At the public hearing we had on LD 1600, the Professional 
Logging Contractors of Maine, the Maine Snowmobile Association, 
the Maine Woods Coalition, as well as many other local 
individuals, testified in support of the bill and in opposition 
to the national monument. As Anne Mitchell of the Maine Woods 
Coalition said, ``I support LD 1600 for the freedom it returns 
to our state. The people of Maine deserve no less.''
    I have also included with my testimony a map of land that 
has been conserved in northern Maine. As you can see, there is 
quite a lot of land, Baxter State Park being the largest that 
is already protected. We need the rest of the land to support 
the timber harvest industry. Taking away quality land will hurt 
jobs and negatively impact our state.
    To some, a national monument or national park might sound 
like an easy fix for the economic challenges our region faces. 
But the solution to the problems we face needs to come from 
within our community, not from outside our community without 
our support. The people of the Katahdin region need to come 
together to work toward driving growth that is homegrown and 
sustainable. There is no magic solution, especially not one 
that is driven by outside forces.
    I am currently working with economic development folks, 
organizing leadership trainings, and inviting speakers from 
around the country who had similar situations like in this 
area. This is a very divisive and complicated situation and 
could greatly hinder economic development in our area. I need 
to be sure it is the right decision before it moves forward.
    If Elliotsville Plantation and supporters of the national 
monument/park proposal want to be a part of those efforts, I 
hope they will start by listening to the people of my 
community. I believe there are other ways to move forward that 
would not be so controversial or potentially harmful to our 
area. Let's put the divisive question of the national monument 
or national park proposal behind us so we can work together for 
a better future in the Katahdin region.
    Thank you.
    [The prepared statement of Mr. Stanley follows:]
  Prepared Statement of Stephen S. Stanley, State Representative for 
                          Maine, Medway, Maine
    Congressman Rob Bishop and esteemed members of the House Committee 
on Natural Resources, thank you for the opportunity to submit testimony 
in opposition to the proposed monument designation in Maine's Katahdin 
region.
    My name is Stephen S. Stanley, and I represent Millinocket, East 
Millinocket, Medway, Patten and the nearby unorganized townships in the 
Maine House of Representatives. I am currently serving my sixth term in 
the Maine Legislature, having previously served four terms in the House 
and one in the Senate.
    A majority people of my district and the surrounding region are 
opposed to a national monument or park. Earlier this year, the people 
of Patten \1\ voted by a roughly 2:1 margin to oppose the formation of 
either a monument or park in the Katahdin region. Last year, both 
Medway \2\ and East Millinocket \3\ voted by similarly overwhelming 
margins to reject the proposal.
---------------------------------------------------------------------------
    \1\ http://bangordailynews.com/2016/04/19/outdoors/patten-
residents-reject-national-park-and-monument-in-vote/.
    \2\ http://bangordailynews.com/2015/06/23/outdoors/medway-rejects-
national-park-proposal-by-wide-margin/.
    \3\ http://bangordailynews.com/2015/06/23/outdoors/medway-rejects-
national-park-proposal-by-wide-margin/.
---------------------------------------------------------------------------
    During the session that recently ended, the Maine Legislature 
reaffirmed what the people of the Katahdin region have made clear. 
Maine lawmakers approved Public Law 458,\4\ also known as LD 1600, 
which the Governor introduced and I sponsored. In its final form, the 
measure specifies that the Legislature does not give its consent in 
cases of the Federal Government acquiring land for the designation of 
the property as a national monument.
---------------------------------------------------------------------------
    \4\ http://www.mainelegislature.org/LawMakerWeb/
summary.asp?ID=280059474.
---------------------------------------------------------------------------
    Numerous and varied concerns have led the majority of local 
residents, as well as many people outside our area, to oppose moving 
forward with the proposed monument or park. I am submitting this 
testimony to give voice to the concerns my constituents have raised, 
which I share.
    One of the greatest concerns is how a monument or park would impact 
our region economically. Though proponents tout the potential gains, 
there are serious questions around whether a monument or park would be 
the economic driver they claim it would be.
    The forest products industry is crucial to Maine's economy, and 
this proposal would do serious harm to the industry. It would take tens 
of thousands of acres of productive woodland out of play. Creating a 
national park or monument could have detrimental consequences on wood 
supply and mills across the state. Papermaking jobs are vital to the 
economic health of working families and communities around Maine and 
there are many concerns about the effect that it may have on the paper 
industry.
    There are other questions around the dampening effect a monument or 
park could have on our region. Would industry-related emissions be held 
to a higher standard near the proposed monument or park? How would that 
impact businesses in the region?
    Proponents counter that hundreds of jobs could be created to 
replace the jobs in our legacy industries. However, when we look at the 
example that Baxter State Park provides, it seems unlikely that these 
estimates are realistic. Beyond that, these jobs would be low-paying 
and largely seasonal.
    In an area that has been devastated by the loss of more than 2,000 
good-paying jobs in the past 10 years, replacing good-paying, year-
round forest products jobs with these tourism jobs is not a good 
solution for the Katahdin region.
    Right now, there is a lot of economic uncertainty in our area as 
plans are discussed to create a national park. Businesses do not want 
to locate to our area, and there is a lot of panic about what may occur 
if a park is created.
    There are legitimate questions around whether the proposal would 
even bring the suggested number of tourists to our region each year. 
While our region is beautiful and special, it does not have a unique 
feature like the Grand Canyon or the geysers at Yellowstone. It cannot 
be compared directly to Acadia National Park, which is a very different 
place in a very different part of Maine.
    But let's assume for a moment that the tourists would come in these 
numbers. The region lacks the infrastructure to accommodate so many 
visitors each year, and we have yet to see any reasonable explanation 
or plan for how that infrastructure will be created.
    It also seems that the type of visitor attracted to our region will 
differ from the visitors that bring economic activity to the area 
surrounding Acadia National Park. Bar Harbor and nearby communities are 
shopping and dining destinations with hotels and many other 
attractions. Here we have productive forestland. It can be enjoyed, but 
it would likely be by people who are prepared for an outdoor 
experience--not a shopping and dining experience.
    Another great concern is whether or not there will be any local 
control. We have managed and operated the Maine woods for years now, 
and we know the ins and outs of the area. Many people in my area are 
concerned that if the national monument is established, nobody in Maine 
will have a say in the rulemaking.
    Historically, we in northern Maine have had access to this land. 
The woods in our area that was owned and operated by paper companies 
was able to be used for other recreational activities such as hunting, 
fishing and snowmobiling as well. A national monument would limit 
access to land we have used all our lives.
    At the public hearing we had on LD 1600, the Professional Logging 
Contractors of Maine, the Maine Snowmobile Association and the Maine 
Woods Coalition, as well as many other local individuals, testified in 
support of the bill and in opposition to the national monument. As Anne 
Mitchell of the Maine Woods Coalition said, ``I support LD 1600 for the 
freedom it returns to our state. The people of Maine deserve no less.''
    I have also included with my testimony a map of land that has been 
conserved in northern Maine. As you can see, there is quite a lot of 
land, Baxter State Park being the largest that is already protected. We 
need the rest of the land to support the timber harvest industry. 
Taking away quality land will hurt jobs and negatively impact our 
state.
    To some, a national monument or park might sound like an easy fix 
for the economic challenges our region faces. But the solution to the 
problems we face needs to come from within our community, not from 
outside our community without our support. The people of the Katahdin 
region need to come together to work toward driving growth that is 
homegrown and sustainable. There is no magic solution, especially not 
one that's driven by outside forces.
    I am currently working with economic development folks, organizing 
leadership trainings and inviting speakers from around the country who 
have had similar situations in their area. This is a very divisive and 
complicated situation and could greatly hinder economic development in 
our area. I need to be sure it is the right decision before it moves 
forward.
    If Elliotsville Plantation and supporters of the monument/park 
proposal want to be a part of those efforts, I hope they will start by 
listening to the people of my community. I believe there are other ways 
to move forward that would not be so controversial or potentially 
harmful to our area. Let's put the divisive question of the national 
monument or park proposal behind us so we can work together for a 
better future in the Katahdin region.
                              attachments
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             

                                 

    The Chairman. Thank you.
    Mr. Sannicandro.

  STATEMENT OF PAUL SANNICANDRO, COUNCILMAN, MILLINOCKET TOWN 
                  COUNCIL, MILLINOCKET, MAINE

    Mr. Sannicandro. Chairman Bishop and distinguished members 
of the Committee on Natural Resources, my name is Paul 
Sannicandro. I am a Registered Maine Guide. For 16 years, I 
have managed wilderness hiking trails as a Trails Advisor for 
Baxter State Park. I am a volunteer at the local ATV and 
snowmobile club.
    I also hold a seat on the Millinocket Town Council. I am 
not here to testify on behalf of the constituents of 
Millinocket, for this controversy has been divisive in our 
town. I am here to testify on my own behalf, for my interest in 
recreational tourism, economic development, and securing my 
values, future, and how I interpret this great state as 
``Maine: The Way Life Should Be.''
    National park and national monument proponents continue to 
say that by virtue of EPI's lands becoming a National Park 
Service unit, that the branding in itself will bring 10 percent 
of Acadia National Park's visitors northbound. In other words, 
300,000 visitors annually would flock to an area that is less 
than half the size of Baxter State Park.
    Let's compare some statistics to refute the sustainability 
and scope of EPI's 87,500 acre gift to the National Park 
Service. Baxter State Park is just over 210,000 acres. It has 
eight drive-to campgrounds, two backcountry hiking-only 
campgrounds, and approximately 60 miles of gravel roads to 
access campgrounds. There are 225 miles of hiking trails. There 
are 46 mountain peaks. There are 65 lakes and ponds, and in 
2013 it had approximately 117,500 visitor days for the year. 
Baxter State Park's visitor carrying capacity is governed by 
the finite designated campsites throughout the park and the 
availability of limited parking capacity for day hikers within 
the park's campgrounds.
    Presently, EPI's proposal does not include the planning for 
camping and recreational infrastructure. How is it possible 
that the Katahdin region could absorb an additional 300,000 
visitors annually when the land base of EPI's ownership in 
Northern Penobscot County is less than half of Baxter State 
Park's acreage? How will flooding the gates with that much 
traffic sustain visitor impacts and preserve the quality of a 
wilderness experience? It is not possible when figuring the 
scale of the proposed national monument or national park is 
only a mere 87,500 acres, as promised.
    You will find attached to my written testimony, excerpts 
from the National Park and Conservation Association's 1988 plan 
titled, ``National Park System Plan'' that describes Baxter 
State Park and the surrounding lands as significant areas to be 
considered as a future National Park Service unit. It stated 
and recommended that it should initiate an NPS study of 
alternatives for the State Park and surrounding lands, NPS 
monitoring of resource conditions, designation of national park 
around Baxter, and inclusion of Baxter State Park in the 
National Park System when opportunity arises.
    The National Park Service plan was produced under the 
direction of Destry Jarvis, who at the time served as the 
Director of the National Park's program for the NPCA. He, of 
course, is the brother of the current National Park Service 
Director, John Jarvis, who recently visited the Katahdin region 
and believes EPI's land holdings are worthy of a national 
monument designation.
    With all of the focus on EPI's lands in the Katahdin East 
Branch region, it would be easy for the uninitiated to be 
distracted from the fact that EPI also owns over 60,000 acres 
in Dover-Foxcroft/Katahdin Iron Works Region. By simply adding 
the total acreage from the two regions, the sum comes close to 
150,000 acres. Does everybody know the 150,000 acre number? 
What is the relevance of this point? Each region is host to a 
gateway community that has been identified for over 25 years in 
the 3.2 million acre Restore The North Maine Woods proposed 
National Park model. The Town of Millinocket would be the 
south-easterly gateway community, and the Town of Greenville 
would be to the southwest as a gateway community.
    The allure of the Katahdin region is a strong one that has 
fascinated many before me and will continue for generations to 
come. My hope is that the Katahdin region will retain its rural 
feel, find creative ways to build sustainable economies that 
allow for true diversification, and not become a gentrified 
play land for elitists.
    I will leave you with these words from the former Maine 
Governor Percival Baxter: ``Man is born to die. His works are 
short lived. Buildings crumble, monuments decay, wealth 
vanishes, but Katahdin in all its glory, forever shall remain 
the mountain of the people of Maine.''
    Forever shall remain the mountain of the people of Maine. 
Thank you.
    [The prepared statement of Mr. Sannicandro follows:]
Prepared Statement of Paul Sannicandro, Moose Woods Guide Service, LLC, 
                           Millinocket, Maine
    My name is Paul Sannicandro. I want to first give thanks for the 
opportunity to share my testimony with you and the Committee on Natural 
Resources, on an issue of profound importance to those that live in the 
Katahdin Region, in the great state of Maine.
    I'm a Registered Maine Guide, who has called the Katahdin Region 
home for the last 20 years. During the majority of that time, I managed 
wilderness hiking trails as the Trail Supervisor of Baxter State Park. 
I've also been an advocate and volunteer, for diversifying the tourism 
economy of the region, by working with my local ATV & Snowmobile Club, 
in negotiating with private landowners, for securing, maintaining and 
developing ATV trail access for connectivity to Maine's larger trail 
network. Most recently, I've launched a four-season guide business, 
catering to visitors of the Katahdin Region. I also hold a seat on the 
Millinocket Town Council. I am not here to testify on behalf of the 
constituents of Millinocket, for this controversy has been divisive in 
our town. I'm here to testify on my own behalf and for my interests in 
Recreational Tourism, Economic Development and securing my values, 
future and how I interpret this great state as, ``Maine, The Way Life 
Should Be.''
    As you may know, the controversy of the creation of a National Park 
in the North Maine Woods goes back to the 1930s. It is not a new idea. 
From the political battles of former Governor Percival Baxter, sparring 
with his successor, Governor Owen Brewster, to the tug of war between 
the forest products industry and the environmental community, this 
debate has been ongoing. Through an evolution of both natural processes 
and human ingenuity, the North Maine Woods has forever been a renewable 
resource. It has seen the shift from hundreds of men with axes and 
cross-cut saws using horses, boats and waterways, into a mechanized 
harvesting operation, using million dollar machinery, a ``crew'' of 
three people, diesel tractor trailers and woods roads to transport logs 
for industry. All while, the rivers kept flowing and the forest 
continued to grow back.
    The North Maine Woods has seen wood products' transportation shift 
away from our waterways, overland, to be hauled by trucks. Waterways 
were dammed, diverted, and in some cases the natural flows reversed. 
It's seen the Clean Water Act, and the private landowners' adaptation 
to transport raw materials by creating thousands of miles of logging 
roads. Roads that opened up new opportunities, creating a more 
convenient means for adventure and recreation for visitors to the North 
Maine Woods. All awhile, the rivers kept flowing, and the forest 
continued to grow back.
    The North Maine Woods has witnessed, experienced and felt the 
pressures of natural processes, also. Major fires also changed the 
ecology of regions for generations. Spruce budworm infestations came 
and went, also. Most notably in recent history, the spruce budworm 
infestation of the late 1970s and early 1980s, resulted in larger scale 
clear cut operations. Industry leaders defended their decisions to the 
fact that salvaging the dead or dying standing timber, would prevent a 
predicted storm of cataclysmic wildfire that could jeopardize their 
operations for the long run. The salvage would prevent waste. The 
environmental community was appalled, and years later, forest practices 
were changed through referendum. All awhile, the rivers kept flowing, 
and the forest continued to grow back.
    What happened to those clear cuts? Well, they grew back. Slowly . . 
. even aged stands of spruce and fir became the thickest cover, which 
became perfect habitat for snowshoe hare. This in turn became the 
perfect habitat, at the southern most end of its range, for the 
Canadian Lynx. More on that later . . . And, all awhile, the rivers 
kept flowing, and the forest continued to grow back.
    Yes, there is a common theme here. In Maine, we have two amazing 
renewable natural resources, water and forests. Elliotsville 
Plantation, Inc. (EPI), the organization that is willing to gift its 
land to the Department of the Interior and has been championing the 
idea of the creation of the proposed National Monument and National 
Park, contracted a study with Headwaters Economics. In the study, there 
were 16 so called, ``peer regions'' that were used to discuss the 
economic benefits of National Parks, in their communities. There are 
sharp contrasts in the comparisons, such as the demographics, proximity 
to other industries and population centers, but most notably, the peer 
regions' former industries. Some of them were boom and bust communities 
from the mining industries out West. It doesn't make those communities 
insignificant. It's just not a good comparison when we're 
differentiating a non-renewable natural resource that is mined and a 
renewable resource that is harvested, such as trees. The paper industry 
may be gone, but there are other uses for wood fiber and wood products. 
So again, the rivers keep flowing and the forest continues to grow 
back.
    Giving my brief overview of the history of the Maine Woods, it's 
also important to note that as a state, Maine has held the bar high 
when it comes to conservation, all awhile this federalization concept 
has been on the backburner. Let's not forget that former Governor 
Percival Baxter, who was vehemently opposed to Federal Government over-
reach in Maine, created the nearly 250,000 acre Baxter State Park, 
given to the state of Maine and its people, in trust. And, over time, 
for example, other NGOs such as the Forest Society of Maine have 
amassed holdings on 1.5 million acres, in conservation easements. These 
easements guarantee recreational access and the ability to continue 
harvesting trees, a renewable natural resource, for the wood products 
industry. The headwaters and waterways of five major rivers located in 
the North Maine Woods have been protected from development through 
conservation easements or purchased in fee by the state of Maine, or by 
other conservation groups and land trusts, that have continued to allow 
for multiple uses.
    In fact, another NGO, North Maine Woods, Inc., which is a 
consortium of private landowners within the working forest, assists 
with recreational management of nearly 3.5 million acres, providing 
roads, campsites and infrastructure for visitors to access and use for 
recreation. My point is that Maine, being the largest forested, 
contiguous tract of undeveloped forest land, east of the Mississippi 
River, already has secured a future for its forests and recreation 
through the benevolence of private landownership working in concert 
with conservation groups and industry, to strike a balance of multiple 
uses. And yes, there is also the dynamic of preservation groups holding 
these landowner's feet to the fire, to ensure that the scales are 
balanced.
    Let's focus now on the purported values and reasons for the high 
level of environmental ``protection'' that the Department of the 
Interior believes is needed, of the EPI lands in question. Of any 
feature, in or around the EPI parcels in question, it's the East Branch 
of the Penobscot River that has the highest value. The features of the 
river itself are unique. There is nothing else like it. Does it 
necessitate NPS regulations? Absolutely not! In fact, in 2014, members 
of the Maine Woods Discovery team paddled the East Branch, in 
commemorating Henry David Thoreau's river trip, 150 years before. 
During that experience they said that they felt the river had changed 
very little with respect to its wilderness character. What is not 
commonly known is the fact that the river corridor, itself, is already 
protected from development.
    In 1981, the former Great Northern-Nekoosa paper company, gifted 
the East Branch of the Penobscot River's corridor to the state of 
Maine, which in turn conveyed it into a conservation easement, managed 
by Maine's Bureau of Parks and Lands. It is listed as ``PRC Upper West 
& East'' on the BPL's Conservation Easement List. ``PRC'' represents 
Penobscot River Corridor. It's already protected and enjoyed annually 
by paddlers, people who fish, birdwatchers and others.
    Recently, I had the amazing opportunity to paddle the East Branch, 
which was why I was unable to attend the meetings with NPS Director 
John Jarvis. This was my first chance to canoe the upper section 
starting at Matagamon. What I can relay from my experience is this . . 
. the East Branch of the Penobscot River Canoe trip is a wilderness 
journey, with or without a Federal designation. It is not for the 
casual paddler, inexperienced, ill prepared or anyone over zealous of 
their own paddling prowess. It is wild! And . . . it did not take a 
Federal agency to keep it that way, for it's as wild today as it was 
when our native peoples traveled it prior to this country's European 
influence. And, even though private landownership, whether it is owned 
by those with a preservation agenda or active forestry plans, abuts 
that corridor, it is off limits to development through that 
conservation easement, period. There is no need for national 
designation, it's already protected. We should leave it alone to be the 
wild place that it is, for the few souls that travel it.
    There is also an 18-mile gravel ``Loop Road'' on the preserve 
property, west of the river. Currently, access to the loop road is 
possible through the traditional benevolence of private landowners, 
some of which may be impacted greatly, should this National Monument 
come to pass. The road winds around and through a predominantly early 
succession forest of pioneer species, such as white birch and aspen. 
There are some spectacular views . . . of Katahdin, the ``Greatest 
Mountain,'' the mountain of the People of Maine, which of course is the 
center piece of Baxter State Park.
    Other features include, the pristine Wassataquoik Stream, which 
begins in Baxter State Park, and whose confluence with the East Branch, 
is already protected as a State of Maine Bureau of Park's and Lands 
ecological preserve area, within the silver maple floodplain. There are 
also some smaller mountains and foothills, that have some hiking 
opportunities, and add to the landscape and charm of the East Branch 
River paddle. The International Appalachian Trail also traverses 
through EPI's land holdings within the ``proposed acquisitional 
boundaries.'' These offerings are not insignificant. However, do they 
really behold the grandeur and allure of National Park distinction and 
designation?
    National Park and Monument proponents continue to say that by 
virtue of EPI's lands becoming a National Park Unit, that the branding, 
in itself, will bring 10 percent of Acadia NP's visitors, northbound. 
In other words 300,000 visitors annually, would flock to an area that 
is less than half the size of Baxter State Park.
    Let's compare some statistics to refute the sustainability and 
scope of EPI's 87,500 acre gift to the NPS. Baxter State Park is just 
over 210,000 acres. BSP has 8 drive-to campgrounds, 2 backcountry, 
hike-in only, campgrounds, approximately 60 miles of gravel roads to 
access campgrounds, 225 miles of hiking trails, 46 mountain peaks, 65 
lakes and ponds and in 2013 had approximately 117,500 visitor days for 
the year. Baxter State Park's visitor ``carrying capacity'' is governed 
by the finite designated campsites throughout the Park and the 
availability of limited parking capacity for day hikers within the 
Park's campgrounds.
    Presently, EPI's proposal doesn't include the planning for camping 
and recreational infrastructure. How is it possible that the Katahdin 
Region could absorb an additional 300,000 visitors, annually, when the 
land base of EPI's ownership, in Northern Penobscot County, is less 
than half of Baxter State Park's acreage? How will ``flooding the 
gates'' with that much traffic sustain visitor impacts and preserve the 
quality of the wilderness experience? It's not possible when figuring 
the scale of the proposed National Monument or NP, is only a mere 
87,500 acres, as promised.
    It was only recently, in the last couple of months, that 
Elliotsville Plantation, Inc. began listing their proposed gift of 
lands in the Katahdin/East Branch Region, as a more accurate number of 
87,500 acres. Up to that point, since the spring of 2015, EPI had 
promoted their gift as 150,000 acres. Looking at a map, created in 
2015, of proposed ``acquisitional boundaries''; it was easy to realize 
that much of the land base also included privately owned parcels within 
the proposed ``acquisitional boundaries.''
    Not only are there private lands that are within the proposed 
boundaries, but there are also public reserved lands and publicly owned 
easements that were paid for with Maine bonds, such as the Land for 
Maine's Future program, and Federal subsidies, such as the Forest 
Legacy Program.
    The focal point of EPI's marketing, for their Katahdin Woods and 
Waters brand, is Katahdin, Maine's highest mountain. The glossy 
mailings sent to locals, with slogans like, ``Let's Continue the 
Conversation,'' show Katahdin. The rallying infomercial contains video 
clips of Katahdin and other mountains within Baxter State Park. Once 
visitors drive the 18-mile loop road once, and see the views of 
Katahdin, surely they will want to visit BSP. How is EPI being a ``good 
neighbor'' to Baxter State Park, when they're constantly showing images 
of Maine's crown jewel, Katahdin? It begs the question, ``does the 
National Park Service have its eye on the most stunning geological 
feature in the North Maine Woods? '' Is Baxter State Park part of a 
greater plan, to be consumed by Federal designation into the National 
Park System? Many would deny that. However, there is evidence that 
suggests just that.
    You will find attached to this testimony, excerpts from the 
National Parks and Conservation Association's 1988 plan, titled: 
National Park System Plan that describes Baxter State Park and the 
surrounding lands as significant areas to be considered as a future NPS 
Unit. It's stated recommendation is to, ``Initiate NPS study of 
alternative for the state park and surrounding lands; NPS monitoring of 
resource conditions; designation of national park around Baxter, 
inclusion of Baxter in the national park system when opportunity 
arises.'' The NPS Plan was produced under the direction of Destry 
Jarvis, who at the time served as the Director of the National Parks 
Program for the NPCA. He, of course, is the brother of the current NPS 
Director, John Jarvis, who recently visited the Katahdin Region and 
believes EPI's land holdings are worthy of National Monument 
designation.
    With all of the focus on EPI's lands in the Katahdin/East Branch 
Region, it would be easy for the uninitiated to be distracted from the 
fact that EPI also owns over 60,000 acres in the Dover-Foxcroft/
Katahdin Iron Works Region. By simply adding the total acreage from the 
two regions, the sum comes close to 150,000 acres. What is the 
relevance of this point? Each Region is host to a ``Gateway'' community 
that has been identified for over 25 years in the 3.2 million acre--
``RESTORE: The North Maine Woods'' proposed National Park model. The 
Town of Millinocket would be the south-easterly Gateway Community and 
the Town of Greenville would be the south-west Gateway Community.
    Again, why would the Headwaters report include Northern Piscataquis 
County, when all of the public relations work and promotions for EPI's 
lands have been near Katahdin? Its inclusion was to garner the needed 
support from the neighboring economically depressed county, for the 
eventual addition of EPI's lands in Piscataquis County, to later be 
added to the NPS fold.
    An irony of this debacle is the fact, out of the many private 
landowners that comprise the North Maine Woods, Elliotsville 
Plantation, Inc., is the only new major regional landowner who actually 
shut off recreational access, prior to working on its new positive 
public relations campaign, to gift their land holdings to the 
Department of the Interior.
    In 2011, Ms. Roxanne Quimby made several visits to the Katahdin 
Region, sharing her plan and vision, with hopes that she could convince 
the local population to agree to a feasibility study. That feasibility 
study would have needed to be initiated by Maine's delegation to 
Washington, DC, with their constituents' approval. The people of the 
Katahdin Region overwhelmingly said, no. That summer of 2011, Secretary 
of the Interior, Ken Salazar visited Millinocket to get a feel for the 
local sentiment toward a National Park. The feasibility study was 
dropped.
    Over the years, the Sportsman's Alliance of Maine, the Maine 
Professional Guides Association and the Maine Snowmobile Association 
have all been unified in sending the message, NO PARK! The Maine 
Legislature in 2011 drafted a proclamation where the majority of the 
legislature voted to denounce the creation of a National Park. Our 
current Governor of Maine, Paul LePage, is against the formation of a 
National Park. Most recently, the Town of Patten held a vote, with the 
resounding message, NO! The Town of Millinocket, twice, wrote resolves, 
denouncing the creation of a National Park. The Towns of East 
Millinocket and Medway both held straw poll votes for their residents, 
with both votes sending the message, NO NATIONAL PARK! And finally, at 
the state level, Maine passed legislation through LD 1600, which once 
again showed that the majority of lawmakers within the Maine State 
government would retain their sovereignty as a state to not accept 
Federal designation of a National Monument.
    It brings us to the point where we are now. Without convincing 
numbers to support the concept and a lack of cooperation from the local 
residents, our delegation in Washington, DC would not move to support 
the development through legislation. But, by using the Antiquities Act, 
EPI has found a way around the local sentiments and has lobbied hard in 
Washington, DC with hopes that courting President Obama to use his 
authority will circumvent the will of the local residents.
    All throughout the years of debate, never has there been a 
suggested compromise that would be amenable to the local voices. 
Somewhere, there is a hybrid model, which would allow the area to 
retain its identity, continue sustainable yield forestry for crafters 
and industry, incorporate trade skills, and identify trails and 
opportunities for all recreational user groups. My initial thought is 
something comparable to the state run model of the Adirondacks Park in 
upstate New York. But unfortunately the conversation seems to always be 
a YES or NO answer, with no discussion of a middle ground.
    The allure of the Katahdin Region is a strong one that has 
fascinated many before me and will continue for generations to come. My 
hope is that the Katahdin Region will retain its rural feel, find 
creative ways to build sustainable economies that allow for true 
diversification and not become a gentrified play land for elitists.

    I will leave you with these words from former Maine Governor 
Percival Proctor Baxter:

        ``Man is born to die. His works are short lived. Buildings 
        crumble, monuments decay, wealth vanishes, but Katahdin in all 
        its glory, forever shall remain the mountain of the people of 
        Maine.''

                              Attachments
                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Background to the National Parks and Conservation Association's 
        1988
Plan
The National Parks and Conservation Association is the private lobby 
arm of the National Park Service. It was created in 1919, three years 
after the start of the National Park Service, by the first Director of 
the National Park Service, Stephen Mather, with his own money to act on 
behalf of the agency in ways a government agency could not.

The National Park System Plan of 1988 (which targeted rural Maine and 
the Baxter area in particular) was produced in conjunction with the 
National Park Service and released by NPCA because the planning could 
not be done within the agency under the Reagan administration. The NPS 
Plan was the major activity of NPCA during that period and was 
privately funded, primarily by the Mellon Foundation and Laurence 
Rockefeller, who also arranged for the Mellon Foundation involvement.

NPCA executive director Paul Pritchard had previously been a Deputy 
Director of the Interior Department in the Carter administration 
running National Park Service programs (in what at the time was called 
the Heritage and Conservation and Recreation Service). The NPS Plan was 
produced under the direction of Destry Jarvis, brother of today's 
National Park Service Director Jon Jarvis.

William Penn Mott, Director of the National Park Service at the time 
was on the NPCA board of trustees. Several other high level NPS 
officials and former officials were also involved, some associated with 
Acadia. NPCA collaborated with NPS officials throughout the planning 
and had routine access to agency files. Political pressure groups were 
consulted in targeting new areas including, for Maine, at least the 
Wilderness Society and the Maine Coast Heritage Trust.

The NPCA Plan is comprised of 9 volumes and an executive summary. 
Volume 8 is devoted to new National Parks and contains the new area 
briefs and descriptions for Maine. Volume 5 describes expansions of 
existing National Parks, including Acadia. The other volumes are about 
controlling in-holdings and areas outside the National Parks, and 
internal organization and policies of the agency.

The NPCA Plan was publicly jointly announced by Pritchard and the 
Chairman of the House Subcommittee on Parks, Bruce Vento (D-MN) in 
early 1988. Copies were distributed throughout the agency, to all 
members of Congress and to the press in a massive lobbying and PR 
campaign. National Park Service Director Mott praised the plan 
publicly. Vento also introduced legislation directing the National Park 
Service to pursue detailed planning in accordance Volume 5 of the NPS 
Plan (it ultimately failed to pass).

(For the history of NPCA and in particular the NPS Plan see John C. 
Miles, Guardians of the Parks: A History of the National Parks and 
Conservation Association, published by Taylor and Francis in 
cooperation with NPCA in 1995, and the National Park System Plan 
itself.)

The public phase of the campaign for expansion of the National Park 
System, including in Maine, was launched in March 1988. It began with 
major spreads in newspapers--including the Boston Globe (where I first 
say it), the Portland Press Herald, The Ellsworth American, and the 
Bangor Daily News for the targets in Maine in particular.

The NPS/NPCA agenda for Maine was fronted by the Natural Resources 
Council of Maine. Jerry Bley was their press spokesman. The other 
pressure groups, including Maine Audubon, backed it as well. Michael 
Kellet and Jym St. Pierre were also distributing a complementary 
Wilderness Society plan for a huge National Park and Preserve in the 
Maine woods.

The pressure groups had become accustomed to getting what they wanted 
from Congress in the 1970s and had expected to roll over Maine with 
opposition only from a few paper companies and what they regarded as 
unsophisticated rural yokels. Instead they ran into a storm of 
opposition lasting for years.

Most of the NPCA promotion of the NPS Plan for specific new National 
Parks in Maine (and elsewhere nationally) died in the controversy by 
the end of the first summer. NPCA ceased distribution of the Plan, 
which had cost about $100 [in 1988 dollars] for private citizens, 
during the summer because property owners were seeing it and speaking 
out, so it is very hard to find now.

But the general campaign continued. It took four years to stop NPS in 
Washington County: Sen. Mitchell finally put a moratorium on the 
National Natural Landmarks Program within the National Park Service--
which was still driving it in collaboration with the Maine Coast 
Heritage Trust and The Nature Conservancy--for violations of civil 
rights following a report by the Interior Inspector General. The 
Landmarks program, surveilencing private property and declaring it to 
be ``nationally significant'' as a feeder program for new National 
Parks and other means of control, is one of the programs that had been 
run by Pritchard while in the Carter Interior Department and is openly 
promoted as a means to target new National Parks in the NPS Plan.

The Northern Forests Land Study run by Stephen Harper of the U.S. 
Forest Service and the four-state Northern Forests Lands Council, both 
targeting 26 million acres from the coast of Maine to the Adirondacks 
in New York for a combination of acquisition and controls across the 
entire region, lasted well into the 1990s. Along with a stream of 
official meetings and waves of regional and national media promotion it 
disrupted people's lives for years, pitting them against both 
government planning and the pressure groups, which operated in a 
consortium called the Northern Forests Alliance, but ultimately failed 
to achieve the park and wilderness pressure groups' objectives. The 
pressure groups were funded in part by the national Environmental 
Grantmakers Association.

They also failed to pass Sen. Leahy's (D-VT) repeated attempts for 
Federal legislation throughout the 90s, which stopped only when he 
moved from the Agriculture Committee to Judiciary.

With the collapsing major PR and ``study'' campaigns for Federal 
control and acquisition, including the NPCA campaign on behalf of the 
National Park Service, the Wilderness Society's Kellet and St. Pierre 
started RESTORE: The North Woods in the early 1990s--with support also 
from the Sierra Club and the National Audubon Society--to keep the 
agenda alive for the Baxter area with the still well-known 3.2 million 
acre target based on the original NPCA Plan (but they describe the 
``north woods'' as much more).

Restore was in place when Quimby entered in the mid 90s, joining the 
Restore board of directors and buying up land, openly intending to turn 
it over to the National Park Service in a plan to bypass public 
opposition against establishment of National Park Service authority. 
She left Restore, saying in 2008 that the organization was too 
controversial in rural Maine, but continued to promote her own land as 
a ``seed'' and a ``down payment'' for the rest. She later began 
marketing the plan as for ``the economy'' to try to avoid the 
unpopularity of the wilderness agenda and Federal control, but refuses 
to give up on the National Park Service agenda, now 27 years old.

The Quimby organization and its supporters are attempting to evade this 
record. When they have to acknowledge it they try to dismiss it as only 
an irrelevant ``proposal from 1987'' mischaracterizing it as an old one 
time event of no significance rather than the 27 year old ongoing 
campaign for eventual control which started but did not end in 1988.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Chairman Bruce Vento, House Subcommittee on Parks, and NPCA 
        President Paul Pritchard presented the NPCA's National Park 
        System Plan in 1988

                  Baxter State Park and Central Maine*

SITE: Baxter State Park and surrounding lands, ME.

DESCRIPTION: Baxter State Park, the State of Maine's largest protected 
area, is located 30 miles north of Millinocket, and is itself 
surrounded by vast acreages of Maine wildland. The park was a gift to 
the State of Maine by former Gov. Percival P. Baxter. A large rectangle 
including approximately 200,000 acres, Baxter was officially designated 
as a park by the Maine Legislature in 1933. The terrain is mountainous, 
thickly forested, and dotted with lakes Mt. Katahdin, the state's 
highest point (5,267 ft.) and the northern terminus of the Appalachian 
Trail, is the central feature of the park. There are 46 mountain peaks 
and ridges, 18 of which exceed an elevation of 3,000 feet, including 
Doubletop Mountain (3,488 ft.), South and North Turner Mountains (3,122 
ft. and 3,3323 ft., respectfully), North Brother Mountain, (4,143 ft.) 
and Traveler Mountain (3,541 ft.). Portions of Grand Lake Matagamon and 
Nesowadnehunk Lake are within the park, as well as numerous smaller 
lakes and streams. A road (50.5 miles) circles the perimeter of the 
park, and there are approximately 5.6 miles of side roads, but the 
interior is near-wilderness. Some 150 miles of trails intersect the 
park. The park offers opportunities for camping, hiking, picnicking, 
swimming, fishing, and snowmobiling. There are eight campgrounds with a 
variety of facilities, including bunkhouses, leantos, and tent sites. 
The lands surrounding Baxter, especially to the southwest and 
northeast, also include huge chunks of privately-owned, yet largely 
undisturbed north woods terrain. North of Baxter are mostly 
unincorporated towns, in the entire area north of the park, east of Rt. 
11 and south of Ashland there are perhaps 40 miles of improved roads. A 
potential network of protected areas could reach north from Baxter to 
the Machias River, east to Rt. 11 and the town of Patten, southwest to 
Monson and Sebec Lake, and west to include lands around Moosehead Lake. 
As much as two million acres could be involved.

SIGNIFICANCE: Baxter State Park is Maine's proudest possession. It is 
the jewel of the New England Adirondacks--a paradise for the 
naturalist, mountain climber, hiker and photographer--and has been 
recognized as such since the early 19th century. Together with Acadia 
National Park and the White Mountain National Forest, Baxter is really 
one of only three large natural areas in public ownership in the 
region. Mt. Katahdin was designated a national natural landmark in 
1967. The citation to the registry describes Mt. Katahdin as ``an 
outstanding example of glacial-geological features, such as karnes, 
eskers, drumlins, kettleholes, and moraines, containing virgin forest 
alpine-tundra ecosystems surrounding unaltered lakes and streams.'' 
Many species of orchid, fern and alpine plants grow in abundance. The 
various fossil and rock types (such as Katahdin granite) are 
geologically interesting. And the lands around the park share equally 
in the natural grandeur of inland Maine. They could become the basis 
for the first national park to preserve the northwoods ecosystem--a 
park which would rival the great western units of the system Baxter is 
an anchor--the northern terminus--of the Appalachian Trail, and is one 
of the most enjoyable portions of the route. Protecting lands to the 
southwest of Baxter could bring additional Trail mileage, and lands 
adjoining it, under federal protection Wildlife abounds in the Maine 
woods. Moose have made a resurgence and the potential exists to 
reintroduce species such as the eastern timber wolf and caribou. 
Recreational value is extremely high. While the mountains beckon the 
hiker, countless lakes and beautiful streams such as the Machias, the 
Aroostock, and the East and West branches of the Penobscot need 
protection. And, the landscape has national significance in several 
cultural senses as well. The Maine woods were one of the favorite 
haunts of the Transcendentalists, including Emerson and Thoreau. Since 
the history of social conscience movements in America--and especially 
the history of conservation--are not well represented in the national 
park system, the Katahdin area would be an excellent venue for 
interpreting such themes.

THREATENING CONDITIONS: With Baxter State Park, there is concern for 
park water quality. Throughout Maine, development pressure is intense. 
As land values remain high, residential, second home and lakeside 
projects are increasingly altering the lands around Katahdin and the 
park. Land use decisions are being made right now which will have long-
term impacts on the development or conservation of lands south of the 
park.

EXISTING LAND USE: Within Baxter State Park there are two distinct 
hunting zones at the northeastern and southeastern edges of the park, 
and a scientific forestry management area in the northwest corner. 
Surrounding lands are privately owned. Some are developed, some support 
commercial timber operations. Most are wild.

OWNERSHIP: Baxter is owned by the State of Maine. Most of the lands 
adjacent to the park are privately owned.

ALTERNATIVE CONSIDERATIONS: The State of Maine recently approved a 
conservation bond measure that will provide funds for land acquisition 
and outdoor recreation projects. The disposition of these funds may 
affect any federal involvement in new park establishment in Maine. 
Nonetheless, options for Baxter State Park include:

  1.  Continued management by the State of Maine, with possibilities 
            for expanded state conservation lands and/or stronger 
            protection for both the East and West branches of the 
            Penobscot River.

  2.  Transfer to the National Park Service and designation as a 
            national park.

  3.  Designation of a vastly expanded complex of national park unit(s) 
            to include Baxter State Park as a core. The NPS could 
            manage Baxter, or the State might retain management of 
            Baxter, while the National Park Service could administer 
            surrounding lands for their conservation and recreation 
            values. Opportunities exist for incorporating as much as 
            2.0 million acres of land and water into a management 
            scheme. Lands to the south west of Baxter are particularly 
            important. Branches of the Penobscot River could be 
            designated as national wild and scenic river segments.

SOURCE OF INFORMATION: State of Maine; The Wilderness Society.

RECOMMENDATlON: Initiate NPS study of alternative for the state park 
and surrounding lands; NPS monitoring of resource conditions; 
designation of national park around Baxter, inclusion of Baxter in the 
national park system when opportunity arises.

National Parks and Conservation Association
New Area Brief
February 1988

        <bullet>Mt. Katahdin , Maine--Mt. Katahdin State Park, once 
        considered for the national park system before Maine Gov. 
        Percival Baxter derailed the effort, is the jewel of northern 
        New England. The park, however, has faced tremendous 
        visitation. Severa1 million acres of forest land surround 
        Katahdin, the choicest of which are on the park's north, west, 
        southwestern boundaries. This area includes hundreds of lakes 
        and miles of candidate rivers for the national wild and scenic 
        river system, including the East and West Branch of the 
        Penobscot River. The area could become an outstanding national 
        park or similar conservation reserve. A national park here 
        could encompass substantial mileage along the Appalachian 
        Trail.
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


    The Chairman. Mr. Meyers.

 STATEMENT OF BOB MEYERS, EXECUTIVE DIRECTOR, MAINE SNOWMOBILE 
                  ASSOCIATION, AUGUSTA, MAINE

    Mr. Meyers. Thank you, Chairman Bishop and Representatives 
Westerman and Poliquin. My name is Bob Meyers and I am here 
representing the Maine Snowmobile Association.
    Our 289 snowmobile clubs groom and maintain 14,000 miles of 
the finest snowmobile trails on earth. Ninety-five percent of 
those trails are on private land. Our association has been on 
record opposed to Federal ownership in the North Woods since 
1998. This opposition has been reiterated in two subsequent 
votes of our directors over the past 18 years. The reason is 
simple: Federal ownership and their distant management 
conflicts with Maine tradition of virtually unfettered access 
for public recreation on private land. Provided they behave 
themselves, folks are able to enjoy not only snowmobiling, but 
other traditional activities like hunting, trapping, fishing, 
and camping on locally-managed private lands. These activities 
combine to produce over $1 billion a year in economic activity 
in our state. Conflicts on usage may arise on occasion, but 
they are worked out with ongoing dialogue between landowners 
and the recreational land users. More importantly, this 
recreation takes place as a secondary activity within actively 
managed, working forests. The forest products industry has an 
economic value of over $7 billion a year.
    What Elliotsville Plantation is proposing is not a gift, as 
they call it, but rather it is an outlier in the larger context 
of land conservation in Maine. Maine people take their land 
conservation seriously. We have 3.8 million acres conserved in 
fee and easement, including 2.1 million acres in working 
forests. It is no accident that Mount Katahdin is featured 
prominently in promotional materials for this proposed national 
monument. Baxter State Park and Katahdin represent everything 
that the land proposed for a national monument designation is 
not. Ironically, one of Governor Baxter's motivations for 
creating this remarkable gift to the people of Maine was his 
desire to protect those lands from becoming a Federal park.
    Over the past several years, park proponents have been 
traveling the state telling just about anyone anything they 
wanted to hear. No problem was too big to overcome. Concerned 
about recreation access? No problem, we will make a national 
recreation area too. No access to our ownership? No problem, we 
will share the timber management roads. And this is a really 
important point, because these roads are active timber 
management roads and it will be difficult, if not impossible, 
for them to co-exist with visitors to a national monument. Do 
you want local input? Sure, we will have a local input advisory 
group that will oversee the management of the park. But, of 
course, all of this is still a problem.
    Elliotsville Plantation has identified the national 
recreation area, but they only own 20 percent of the proposed 
land. Most of the 64 landowners who own the other 80 percent 
are rightly concerned that the National Park Service will be 
painting bull's-eyes on their backs. Vacationers will be 
surprised when they come around a curve and encounter 250,000 
pounds of wood coming toward them. And the advisory group? 
Well, every national park has one, but their job is to 
advocate, not advise. When the National Park Service completed 
their illegal acquisition of Maine land in Schoodic last fall, 
the local acquisition review committee learned about it after 
the fact from the local papers.
    One of the more telling points in the presentations by park 
proponents is the economic study they have completed. The rosy 
picture they painted is far from reality and plays on the 
concerns of local communities that have been devastated by the 
closure of the local paper mills. Estimates of 400 to 1,000 
jobs have been thrown around, yet neglect to mention that those 
estimates are based on a full build-out of the park, which is 
likely to be at least 15 years down the road, if it is ever 
authorized by Congress and funded.
    That same exaggeration is used with the promise of a $20 
million endowment for the park, with a pledge to help raise an 
additional $20 million. They claim that the proceeds from the 
endowment will help fund construction and ongoing maintenance 
at the park. In reality, as you know, the maintenance backlog 
is almost $12 billion, and there is little, if anything, that 
this endowment will do to help that park.
    It is probably more important that the endowment was 
revealed at the recent public meetings with Director Jarvis in 
Orono, Maine. When asked a question about the Board of the 
National Park Foundation, and if Quimby had bought her way in, 
Jarvis' response was telling: ``We like wealthy people because 
they give us their money. And they know other wealthy people 
who also give us their money. And philanthropy has always been 
part of the National Park System.'' Basically, what Jarvis told 
the people of Maine was that Roxanne Quimby had bought her 
admission ticket and they are just about ready to punch it.
    From the perspective of our organization, we have watched 
the ongoing battles over access in national parks for the past 
25 years. Millions of dollars have been wasted on these fights, 
and access continues to be lost. The local people have said no 
to this proposal. The state of Maine has said no to this 
proposal. And we urge you to pay attention to the folks in 
Maine.
    Thank you.
    [The prepared statement of Mr. Meyers follows:]
Prepared Statement of Bob Meyers, Executive Director, Maine Snowmobile 
                      Association, Augusta, Maine
    Chairman Bishop and distinguished committee members, my name is Bob 
Meyers and I am presenting information on behalf of the 26,000 
individuals and 2,100 businesses that belong to the Maine Snowmobile 
Association. Our 289 snowmobile clubs groom and maintain 14,000 miles 
of trails in Maine, 95 percent of which are on private land.
    Our Association first went on the record in opposition to Federal 
ownership in the North Woods in 1998. That opposition has been 
reiterated in two subsequent votes of our directors in the past 18 
years. The reason is simple. Federal ownership and their distant 
management conflicts with Maine's tradition of virtually unfettered 
access for public recreation on private land. Provided they behave 
themselves, folks are able to enjoy not only snowmobiling, but other 
traditional activities like hunting, trapping, fishing, and camping on 
locally managed private lands. These activities combine to produce over 
a billion dollars a year in economic activity. Conflicts on usage may 
arise on occasion, but they are worked out with ongoing dialogue 
between landowners and recreational land users. More importantly, this 
recreation takes place as a secondary activity within actively managed 
working forests. The forest products industry has an economic value of 
over $7 billion annually.
    What Roxanne Quimby, Lucas St. Clair and Elliotsville Plantation 
are proposing is not a ``gift,'' as they call it, but rather an outlier 
in the larger context of land conservation in Maine. Mainers take their 
land conservation seriously. Maine has 3.8 million acres conserved in 
fee and easement, including 2.1 million acres in our working forests. 
It's no accident that Mount Katahdin is featured prominently in 
promotional materials for this proposed national monument or park. 
Baxter State Park and Katahdin represent everything that the land 
proposed for a monument designation is not. Ironically one of Governor 
Baxter's motivations for creating the remarkable gift of this state 
park for the people of Maine was his desire to protect the lands from 
becoming a Federal park.
    For the past several years, park proponents have been traveling the 
state telling everyone just about anything they wanted to hear. No 
problem was too big to be overcome. Concerned about recreation access? 
No problem--we'll make a national recreation area too. No access to our 
ownership? No problem--we'll share the use of timber management roads. 
Want local input? Sure we'll have a local advisory group that will 
oversee the management of the park. But of course all of it remains a 
problem.
    Elliotsville Plantation has identified the recreation area, but 
they only own 20 percent of the proposed land. Most of the 64 
landowners who own the other 80 percent are rightly concerned that the 
park service will be painting bull's-eyes on their backs. Vacationers 
will be mighty surprised when they come around a curve and encounter 
250,000 pounds of wood coming toward them. And the advisory group? Just 
about every national park has one, but their job is to advocate, not 
advise. When the Park Service completed their illegal acquisition of 
Maine land in Schoodic last fall, the local acquisition review 
committee learned about it after the fact from the local paper.
    One of the more telling points in the presentations by park 
proponents is the economic study they have completed. The rosy picture 
that is painted is far from reality and plays on the concerns of local 
communities that have been devastated by the closure of the local paper 
mills. Estimates of 400 to 1,000 jobs are thrown around, yet neglect to 
mention that those estimates are based on a full build-out of the park 
15 years down the road, if it is ever authorized by Congress and 
funded.
    The same exaggeration is used with the promise of a $20 million 
endowment, for the park with a pledge to help raise an additional $20 
million. They claim that the proceeds from the endowment will help fund 
construction and ongoing maintenance at their park. In reality, with 
almost $12 billion in deferred maintenance shortfalls for the Nation's 
National Parks, that endowment will do little if anything to help build 
that park.
    It is likely that the more important role of the endowment was 
revealed at the recent public meetings about the park proposal by 
National Park Service Director Jon Jarvis. When asked a question about 
the Board of the National Park Foundation, and if Quimby had bought her 
way in, Jarvis' response was telling: ``We like wealthy people because 
they give us their money. And they know other wealthy people who also 
give us their money. And philanthropy has always been part of the 
national park system. We have always had this relationship with wealthy 
people.'' That remark at the very least implies that pay-for-play is 
alive and well at the Park Service. The members of my Association find 
it appalling that a Federal Government agency would operate on that 
level.
    From the perspective of our organization, we have watched the 
ongoing battles over access between the Park Service and their allies 
and snowmobilers over the past 20 years. Millions of dollars have been 
wasted in impact studies and lawsuits, usually filed by environmental 
groups with ties to the service. In each case, we have watched 
snowmobile access be slowly eroded, and have no doubt that path will be 
followed in Maine if the Park Service assumes control over more land.
    The local residents have said no to the park proposal, and 
emphatically. Votes in three communities close to the proposed monument 
rejected the proposal for a park by votes of more than two to one. Not 
a single member of Maine's congressional delegation will introduce 
legislation to create a park in spite of hundreds of thousands of 
dollars spent on lobbyists and public relations consultants. In 
reality, the monument designation is not a step in the path to a 
Federal park, it is an admission of failure in their quest to create 
this boondoggle. Maine people understand that this is not about 
conservation, it is about control and buying a legacy. If Roxanne 
Quimby and Lucas St. Clair truly believe in conservation, we urge them 
to abandon this monument proposal and work with the state of Maine to 
create a lasting conservation legacy.

                                 ______
                                 

    The Chairman. Mr. Trahan.

  STATEMENT OF DAVID TRAHAN, EXECUTIVE DIRECTOR, SPORTSMAN'S 
               ALLIANCE OF MAINE, AUGUSTA, MAINE

    Mr. Trahan. Chairman Bishop, Representative Westerman and 
Representative Poliquin, my name is David Trahan. I am the 
Executive Director of the 10,000-member Sportsman's Alliance of 
Maine (SAM). SAM is Maine's largest and most influential 
advocate for hunting, fishing, and outdoor recreation. Our 
members come from all parts of Maine, as well as other states. 
Thank you for the opportunity to address this committee.
    It is SAM's mission to defend the rights of sportsmen and 
firearm owners. In addition, we promote the responsible 
conservation of our natural resources. On several occasions, 
including last year, we polled our members on whether they 
supported the creation of a national park for the Katahdin 
region of Maine, as proposed by Roxanne Quimby. Each time the 
answer was a resounding no, with our last poll at 92 percent 
opposition.
    Land ownership in Maine is unique: 94 percent of our land 
is in private ownership, and forests cover 90 percent of the 
state, making Maine the most heavily forested state in the 
country. Maine has a long-standing tradition of allowing public 
access to private land for hunting, fishing, snowmobiling, and 
wildlife watching. It is particularly noteworthy that 
industrial timberland owners in the Great North Woods 
traditionally keep their lands open to recreational users. It 
is the rare exception when a large landowner, like Roxanne 
Quimby, denies reasonable access for outdoor recreation.
    Through the generations, Mainers have struck a delicate 
balance with landowners, sharing the land for all sorts of 
recreational uses, like hunting, fishing, trapping, and 
snowmobiling. Over time, large landowners have leased land and 
camps to outdoor recreationists, and as a result, thousands of 
camps have sprung up in the wilds of Maine. Families have 
invested tens, and sometimes hundreds of thousands of dollars, 
building and maintaining these second homes. During these 
adventures into the Maine woods, moms, dads, grandfathers, 
uncles, aunts, and friends learned how to hunt, fish, camp, and 
conserve our natural resources, and in the process built bonds 
that made families stronger, and men and women better citizens.
    The 12 million acres comprising the North Woods are not all 
logging activity. Much of the land has been placed in 
conservation protection on privately and publicly owned 
property. More than 3 million acres are protected from 
development using conservation easements, and others are being 
managed for multiple public uses by land trusts. Still others 
are being conserved as natural areas. More than 300,000 acres 
are being conserved as deer habitat. And logging activity 
throughout the North Woods is regulated by the Forest Practices 
Act of 1997. It is a mistake to believe that a national park or 
national monument is needed to preserve either a forest or 
access to it anywhere in northern Maine.
    In the last 100 years, a great forest products industry 
grew from our renewable forest, which has provided billions of 
dollars in economic activity and thousands of good jobs. Rugged 
men and women learned to live with and love our magnificent 
natural resources. Unfortunately, that delicate balance between 
landowners and Mainers was threatened in the early 1990s when 
the radical group Restore the North Woods (Restore) appeared on 
the scene. They proposed abandoning traditional recreation like 
hunting, snowmobiling, and motorized recreation, as well as 
ending logging. Instead, they proposed creating a 3.2 million 
acre national park surrounding Baxter State Park. The 
opposition to this attempt to place northern Maine in Federal 
ownership was swift and overwhelming. No Maine congressional 
delegation or governor has ever supported the idea. There has 
been no feasibility study nor legislation introduced to 
establish this behemoth of a park. However, in the aftermath, 
Restore did not go away; they merely changed tactics beginning 
in about 2004.
    With Restore's national park idea crushed, Restore board 
member, Roxanne Quimby, took on the role of national park 
advocate. A self-made multi-millionaire, she launched a plan to 
personally acquire land and then donate that acreage to become 
the seeds of a national park. Beginning in 2004, Quimby used 
her millions to begin assembling the land to build the 
wilderness park. Unfortunately, she used a meat cleaver to hack 
her way through the region.
    As Quimby purchased large tracts of land, she gated once 
accessible roads, not just to her land, but access roads that 
when gated created landlocked parcels that she could then buy 
cheaply. Her treatment of lease holders was even more hostile. 
This is an excerpt from the book ``Queen Bee: Burt's Bees, and 
Her Quest for a New National Park,'' in the chapter titled 
``Elliotsville Purchases'': ``Roxanne didn't require lessees to 
vacate, but most were informed that their annual leases would 
increase from $600 to $1,500 after one year--similar to rates 
elsewhere in Maine--and that hunting, trapping, and the use of 
motorized vehicles would be prohibited. Most camp owners chose 
not to renew their leases after the initial year, and their 
vacated buildings were burned. One lessee, Michael Weymouth of 
Boston, was allowed to stay on, perhaps as her eyes and ears in 
the area. An artist, photographer, and poet, Weymouth was 
simpatico with Roxanne as a lover of the natural world. He 
offered to let other writers, photographers, and artists use 
the camp when he wasn't there.''
    In addition to spreading her money around, she worked 
outside of the new national park designation process. Studies 
of the park that claim 500 new jobs will be created were paid 
for by her. None of them are experts, just products of a well-
funded Washington, DC consultant campaign.
    With that, Mr. Chair, I would love to finish my testimony, 
but I see I have used up my time.
    Our organization remains steadfastly opposed to the 
creation of a national monument or a national park.
    [The prepared statement of Mr. Trahan follows:]
  Prepared Statement of David Trahan, Executive Director, Sportsman's 
                    Alliance of Maine, August, Maine
    Chairman Bishop, Rep. Westerman, and Rep. Poliquin, my name is 
David Trahan. I am the Executive Director of the 10,000-member 
Sportsman's Alliance of Maine (SAM). SAM is Maine's largest and most 
influential advocate for hunting, fishing, and outdoor recreation. Our 
members come from all parts of Maine, as well as other states. Thank 
you for the opportunity to address this committee, and this important 
issue.
    It is SAM's mission to defend the rights of sportsmen and firearm 
owners. In addition, we promote the responsible conservation of our 
natural resources. On several occasions, including last year, we polled 
our members on whether they supported the creation of a National Park 
for the Katahdin region of Maine, as proposed by Roxanne Quimby. Each 
time the answer was a resounding NO, with our last poll at 92 percent 
opposition.
    Land ownership in Maine is unique: 94 percent of our land is in 
private ownership, and forests cover over 90 percent (17.7 million 
acres) of the state, making Maine the most heavily forested state in 
the country. Maine has a long-standing tradition of allowing public 
access to private land, for hunting, fishing, snowmobiling, and 
wildlife viewing. It is particularly noteworthy that industrial 
timberland owners in the great north woods traditionally keep their 
lands open to recreational users. It is the rare exception when a large 
landowner, like Roxanne Quimby, denies reasonable access for outdoor 
recreation.
    Through the generations Mainers have struck a delicate balance with 
landowners, sharing the land for all sorts of recreational uses, like 
hunting, fishing, trapping, and snowmobiling. Over time, large 
landowners have leased land and camps to outdoor recreationists, and as 
a result, thousands of camps have sprung up in the wilds of Maine. 
Families have invested tens, and, sometimes hundreds, of thousands of 
dollars building and maintaining these second homes. During these 
adventures into the Maine woods, moms, dads, grandfathers, uncles, 
aunts, and friends learned how to hunt, fish, camp, and conserve our 
natural resources, and in the process built bonds that made families 
stronger, and men and women better citizens.
    The 12 million acres comprising the North Maine Woods are not all 
logging activity. Much of the land has been placed in various forms of 
conservation protections, on privately and publicly owned property. 
More than 3 million acres are protected from development using 
conservation easements. Other lands are being managed for multiple 
public values by land trusts. Still others are being conserved as 
natural areas. More than 300,000 acres of timberland are being managed 
as deer wintering habitat. And logging activity throughout the north 
woods is regulated by the Forest Practices Act of 1997. It is a mistake 
to believe that a National Park or National Monument is needed to 
preserve either the forest or access to it, anywhere in northern Maine.
    In the last 100 years a great forest products industry grew from 
our renewable forest, which has provided billions of dollars in 
economic activity and thousands of good jobs. Rugged men and women 
learned to live with, and love, our magnificent natural resources. 
Unfortunately, that delicate balance between landowners and Mainers was 
threatened in the early 1990s when the radical group Restore the North 
Woods appeared on the scene. They proposed abandoning traditional 
recreation like hunting, snowmobiling, and other motorized recreation, 
as well as ending logging. Instead, they proposed creating a 3.2-
million acre wilderness National Park surrounding Baxter State Park. 
The opposition to this attempt to place northern Maine in Federal 
ownership was swift, and overwhelming. No Maine congressional 
delegation or governor has ever supported the idea, and Restore was run 
out of the Katahdin region. There has been no feasibility study nor 
legislation introduced to establish this behemoth of a park. However, 
in the aftermath, Restore did not go away; they merely changed tactics, 
beginning about 2004.
    With Restore's wilderness park idea crushed, Restore board member 
Roxanne Quimby took on the role of National Park advocate. A self-made 
multi-millionaire, she launched a plan to personally acquire land and 
then donate that acreage to become the seed of a wilderness National 
Park. Beginning in 2004, Quimby used her millions to begin assembling 
the land to build the wilderness park. Unfortunately, she used a meat 
cleaver to hack her way through the region.
    As Quimby purchased large tracts of land, she gated once accessible 
roads, not just to her land, but access roads that when gated created 
landlocked parcels that she then could buy on the cheap. Her treatment 
of lease holders was even more hostile. This is an excerpt from the 
book, Queen Bee: Burt's Bees, and Her Quest for a New National Park, in 
the chapter titled ``Elliotsville Purchases'': ``Roxanne didn't require 
lessees to vacate, but most were informed that their annual leases 
would increase from $600 to $1,500 after one year--similar to rates 
elsewhere in Maine--and that hunting, trapping, and the use of 
motorized vehicles would be prohibited. Most camp owners chose not to 
renew their leases after the initial year, and their vacated buildings 
were burned. One lessee, Michael Weymouth of Boston was allowed to stay 
on, perhaps as her eyes and ears in the area. An artist, photographer, 
and poet, Weymouth was simpatico with Roxanne as a lover of the natural 
world. He offered to let other writers, photographers, and artists use 
the camp when he wasn't there.''
    On May 22, 2008, the Bangor Daily News reported that camp lease 
holder Muriel Fortier, age 92, would spend her last days on the 
Penobscot River. Quimby, the new landowner who held Fortier's lease, 
would not renew it, and told Fortier that she must leave within a year. 
Muriel responded, ``I am heartbroken. I have been living off the land 
and alone for the last 15-18 years ,and it's been my lifeline up 
there.''
    Finally, on Oct. 7, 2011, Quimby's legacy with Mainers was sealed 
when in an interview with the Bangor Daily News she called Maine, ``a 
welfare state'' that ``has a large population of obese and elderly 
people, and whose major landowners are committed to a forest products 
industry model that hasn't worked in years.''
    With her National Park public relations campaign in shambles, 
Quimby turned the reins of the campaign over to her son, Lucas St. 
Claire. Using her vast wealth, and the Quimby Family Foundation, St. 
Claire and his mother have made countless donations to organizations 
and likely park supporters, including: the Natural Resources Council of 
Maine, the Maine Audubon Society, the Sierra Club, and many others. 
Quimby has promised huge donations ($40 million) to the National Park 
Foundation, and funded friendly politicians and at least one prominent 
Maine outdoor writer. At the same time, she ignored lopsided votes from 
all the communities in the affected region that remain in opposition to 
the National Park proposal. I am proud to say that SAM has never taken 
a dime from Quimby, and our organization has opposed her National Park 
scheme from Day One!
    In addition to spreading money around, Quimby has worked outside of 
the normal National Park designation process. Studies of the park that 
claim 500 new jobs will be created were paid for by her, not Congress. 
Those who say this land is park-worthy are either paid to say so, 
sympathetic politicians, or the pro-park press. None of them are 
experts in such matters, just products of a well-funded public 
relations campaign produced by Quimby's Washington, DC consultants.
    Last, SAM does not believe for a moment that Roxanne Quimby or 
Restore the North Woods have deviated from their original plans. We do 
not believe the land will remain an 87,000-acre National Monument for 
long. Instead, we believe the National Park Service will transition 
this land to National Park status as soon as it becomes politically 
feasible. This National Park will then quickly grow like a cancer, 
gobbling up the region's land, and destroying its history as a working 
forest with unfettered access to traditional outdoor recreation. Given 
that Quimby has bought and donated land to Acadia National Park and 
other National Parks around the country, we believe she intends to use 
her money and Park-friendly landowners around Baxter State Park to 
immediately begin growing the National Monument to what she and Restore 
really want: a 3.2-million acre wilderness park.
    Consistent with Quimby's and Restore's philosophy, once 
established, this park is really designed to exclude, not welcome 
people. To quote Restore's 2014 online brochure: ``As we enter the new 
millennium, we have an extraordinary opportunity to save, for all time, 
the largest remaining wilderness east of the Rockies.'' Unlike Acadia 
National Park, Quimby and Restore envision few roads in their proposed 
park. That was the plan that Restore presented to Mainers in the 1990s, 
and it will likely be stated in the property deeds Quimby presents to 
President Obama in the near future.
    In the early 1990s, Roxanne Quimby and her friends at Restore began 
a takeover of the land and the culture of the Millinocket region. Using 
her money to buy political influence, she steamrollered over camp 
owners, sportsmen, and traditional land users, and in the process 
stamped out generations of local Mainers' memories and traditions. 
Nationally, Quimby bought her way onto the prestigious National Park 
Foundation Board of Directors. What better way to politically wrangle 
her way to a National Park designation? Clearly, the designation of a 
National Monument by Executive Order by President Obama will be viewed 
as cynical end-run around Congress and the people of northern Maine. We 
hope those politicians who support this maneuver will ultimately pay a 
political price for their collusion.
    If Quimby is successful, she will impose her vision of quaint art 
galleries and benign sightseers mostly from urban cities like Portland 
to be forced down the throats of rural Mainers. What happens if her 
vision and social experiment fails, and American citizens refuse to 
travel past our already established magnificent National Parks to visit 
what I would argue is cut-over average industrial forest? Who will hold 
her son and supporters accountable to the promises of jobs and 
prosperity?
    I believe President Obama and park supporters have made their 
political deal with Roxanne Quimby, and hence, the National Monument 
designation is imminent. When that day comes, the President, Senator 
Angus King, and all those who will trumpet this designation as a 
victory must also accept the legacy that they enabled this injustice to 
happen.
    SAM steadfastly opposes the designation of any land in the Maine's 
north woods as a Katahdin Woods National Monument, National Park, or 
National Recreation Area. Any such designation will diminish the 
working forest and its strategically important timber resources. It 
will also deprive hunters, fishermen, snowmobilers, and other outdoor 
enthusiasts much-needed recreational access. Diminishing this access 
also diminishes the economic potential of northern Maine. Maine and the 
Nation do not need a National Park in our north woods.

                                 ______
                                 

    The Chairman. Thank you. I appreciate that. And like I said 
before, everything you have written will be part of the record 
as well.
    Now we will move into the bonus round where we get to ask 
questions. Nothing personal, but I am going to be keeping a 
closer watch on you guys.
    You will be limited to 5 minutes for the questions. We will 
start with Mr. Westerman.
    Are you ready?
    Mr. Westerman. Thank you, Mr. Chairman.
    And also, thank you to the witnesses for coming today and 
testifying. I found your written testimony very informational, 
and I just have a few questions I want to run by you.
    Representative Stanley, I served in my state legislature, 
so I understand what that is like a little bit. I was 
researching the state forests and parks in Maine. I was very 
impressed with what I found out. I think there are 48 state 
parks. On their Web site they actually have management plans 
listed. I don't know how well those are followed, but at least 
the structure and the way those state parks are set up seems to 
be operating quite well. I know in my state we get positive 
feedback on the state parks.
    But what kind of feedback do you get from your constituents 
on the way the state parks and forests are managed?
    Mr. Stanley. As far as the state parks, I get no feedback. 
The way the forest is managed is productive for the people that 
own the land, and also a lot of the people who go on that land 
have free access.
    Mr. Westerman. OK. That leads into my next question for Mr. 
Sannicandro and Mr. Meyers.
    I served in my state legislature. I rarely got questions 
about state parks in my state. Since being in the Federal 
Government, I get questions all the time about Federal lands in 
my state, and one of the main issues is access.
    I just went through a big effort to put a new management 
plan in place on a Fish and Wildlife refuge, where one of the 
most contentious points was that the Fish and Wildlife Service 
was trying to take roads and trails out of the management plan. 
I get feedback from constituents on Forest Service land about 
the Forest Service closing roads, even to the point that people 
are getting ticketed for riding four-wheelers because they 
create too much dust that gets over in the ditch and gets in 
the streams, so the Forest Service says. Nonetheless, it is 
constant.
    How damaging would limited access be to the businesses that 
you two have with outdoor recreation?
    Mr. Sannicandro. That is an interesting question. In 
particular, there have been several land transactions since 
2007. Some of them are land swaps with Elliotsville Plantation. 
One in particular is called the Hunt Farm Tract. Elliotsville 
Plantation still retains ownership of that particular tract. 
The state of Maine and Maine taxpayers own an easement on it 
for recreational access and for our sustainable forestry 
practices. It is the only easement in the state of Maine that 
specifically says ATV access.
    Unfortunately, around here, ATV has been turned into a 4-
letter word for some reason and we are having more and more 
difficulty trying to get access for that through traditional 
means, like working with landowners. That is something that we 
do with local snowmobile and ATV clubs.
    That parcel was also purchased with forest legacy funds 
that come from the USDA. If this is conveyed to the Federal 
Government in a national monument, we have basically lost the 
ability to recreate. The forest legacy funds were given to us 
for access, yet we are going to lose that.
    Mr. Westerman. I see the irony. In hearings, we have 
Federal land managers come into the hearing, the National Park 
Service being one of them. They complain that their numbers are 
down, there are not as many young people going to national 
parks, and what can they do to get more young people into 
national parks, yet they are closing down access to the parks 
at the same time.
    Mr. Meyers, what is your take on the access?
    Mr. Meyers. Well, I will go back to your original question. 
I have been with the Association for a little over 20 years now 
and I have participated in more management plans than I care to 
remember on state lands, which they do regionally and focus on 
the local parcels that the state owns.
    We have no problems with access because it is all worked 
out in the plans, and there are protected areas where we are 
not allowed, and we are fine with that and we respect that.
    Several years ago, we had a major trail that ran through 
two different wildlife refuges, Suncase Meadows and Moose Horn. 
We were about to lose access because of rules that were 
promulgated in Washington. We were in contact constantly with 
the local managers of the refuges. They were saying, ``Gee, 
your trail keeps everybody right on target, where we want them 
to be.'' It took 3 years and the assistance of our 
congressional delegation to be able to get that access back.
    Mr. Westerman. Thank you, Mr. Chairman.
    The Chairman. Mr. Poliquin.
    Mr. Poliquin. Thank you, Mr. Chairman.
    Thank you all very much for being here today.
    With a show of hands from the four witnesses, would you 
please let us know if you have met with Mr. Lucas St. Clair or 
other representatives who own this land?
    Mr. Stanley, have you met with Mr. St. Clair?
    Mr. Stanley. No.
    Mr. Poliquin. OK. Mr. Sannicandro, during your meeting with 
Mr. St. Clair, were you ever presented with a specific build-
out plan for the proposed national monument, including roads, 
amenities, visitor centers, bathrooms, and an entrance to the 
property?
    Mr. Sannicandro. I think the entrance is still up in the 
air. We had several meetings right here in the Millinocket area 
about a year ago. It seemed the target was always moving, and 
of course the acquisitional boundaries also included other land 
holdings.
    I have met with Lucas probably two or three, maybe four 
times over the years, and I think we have a lot in common, but 
what we do not have in common is pretty big.
    Mr. Poliquin. Mr. Meyers, in meeting with the 
representatives of the landholders, were you given a clear 
indication of where the entrance would be to this presumed 
national monument? The reason I ask that is our office and 
myself have met with Mr. St. Clair a number of times and it has 
always been presumed and indicated to us clearly that the 
entrance would be in the Millinocket area. However, if I am not 
mistaken, recently Mr. St. Clair said otherwise, that the 
entrance would be about an hour and 15 minutes or so toward the 
northern tip of the property in the general Patten area. What 
is your understanding of this, sir?
    Mr. Meyers. Well, I have met in the past several times with 
both Lucas and Roxanne, and the only road access they actually 
own is on the Baxter Park Road up by Matagamon, which is 
essentially at the opposite end of the park from where we are 
now. Everything else is by easements, and these were 
traditionally logging company roads and still are. There are 
easements and agreements for use on those roads. There is 
recreational use. A lot of those roads can be snowmobile trails 
in the wintertime. We lost a significant trail that traveled 
essentially north to south through their property when they 
originally bought it, and I just have a real hard time getting 
my head around how these roads can be shared use between two 
pretty incompatible types of uses.
    Mr. Poliquin. Thank you.
    Chairman Bishop, if the owners of this property give this 
land to the Federal Government and the President of the United 
States, with the authority he has today to accept this land, 
then so designates it a national monument, after that happens, 
is there any opportunity for the state, our local communities, 
or the congressional delegation to weigh in and demand specific 
management practices such that the property can be harvested 
for timber? Can we make sure there are recreational uses that 
are designated with this land, or is it too late?
    The Chairman. Actually, it is too late for local 
government. You could do a piece of legislation to do it, or 
the new president could mandate that. But that is why the wise 
decision is to answer all these questions ahead of time, before 
they make the designation. It is too late at that point.
    Mr. Poliquin. Congressman Westerman, you are a professional 
forester. Thirty-five years ago we had a horrible infestation 
of spruce budworm that decimated a significant part of our 
working forest. There is a problem brewing north of the area, 
in Canada, with the same issue. If that were to find its way to 
our working forests, what opportunities exist if this land 
becomes the property of the Federal Government to deal with a 
spruce budworm epidemic and harvesting that before it is 
destroyed, and what happens if there are forest fires on this 
property?
    Mr. Westerman. I don't pretend to be a spruce budworm 
expert. My understanding is it is an insect that has an 
outbreak about every 40 years, and maybe in the 80th year it is 
a very severe outbreak, and I think the last one here was in 
the 1970s. But to react to that spruce budworm quickly usually 
involves harvesting fir trees because that is the first tree 
that the budworm attacks. If this were a national monument, all 
the trees would be considered part of the national monument and 
it could probably take a year or more, if ever, to be able to 
get a plan in place to go in and harvest the trees to help 
salvage that forest and maintain forest health.
    The problem with that is that it would not only affect that 
area, it can affect surrounding areas of private timberland, 
and then you eventually get insect killed or weakened trees and 
you get an increased fire danger, which also threatens the 
property around it. So, being able to maintain that management 
and not yielding that to the Federal Government I think is an 
issue that everybody needs to weigh seriously as to whether 
they want somebody in DC making that decision or do they want 
somebody here on the ground making those decisions.
    Mr. Poliquin. Thank you, Mr. Westerman.
    The Chairman. I have a couple of questions. Representative 
Stanley, national parks can only be created by Congress, so the 
President can never designate a national park. Without the 
constant plan, as well as planning document going through this 
first, it is actually not going to happen in Congress. Those 
people who think a national monument would be an initial step 
toward a national park are naive thinkers. It has not happened 
before and it is not going to happen again.
    But one of the things that could happen is local support. 
You actually passed a piece of legislation this last session 
that mandated the Maine legislature would have to approve any 
national monument. Why did you do that?
    Mr. Stanley. I think the reason why we did that is because 
right now the state has no say on any of this. We are just 
sitting back, letting the President do whatever he wants to do. 
He can sign it or not sign it. That is up to him. Congress can 
pass a law to make a national park. They can do that. But we in 
the state, we have to just sit back and do nothing, that is 
wrong. We are Representatives of the people of this state and 
also represent all the land that is in the state, the laws, and 
everything else that goes forward with it.
    The Chairman. Was this passed bipartisanly?
    Mr. Stanley. This was passed by the majority in the House 
and the majority in the Senate. It was bipartisan in the 
Senate.
    The Chairman. Has the Administration been in contact with 
you about this proposal at all?
    Mr. Stanley. Are you talking about the present 
administration?
    The Chairman. The present administration.
    Mr. Stanley. No.
    The Chairman. All right.
    Let me ask Mr. Trahan, you said that 92 percent of your 
members were opposed to this. Who are your members? Who do they 
represent?
    Mr. Trahan. My members are from Maine and mostly New 
England. We do have some members outside of New England. We are 
made up of sportsmen, women, and conservationists. Our mission 
has become very broad, everything from land conservation, to 
protection of hunting, fishing, trapping, and other activities.
    The Chairman. All right. What I am dealing with in Utah is 
that recreation is very important and a lot of the issues on 
public lands have been modified as time goes on. They will 
simply close down the trails for ATV or cut the area off for 
hunting or fishing.
    Were you told that hunting would be able to continue on 
with this? Because basically there is no national park in the 
system that allows recreational hunting anywhere.
    Mr. Trahan. It was pretty clear in our meeting with Lucas 
St. Clair that the lands that would become a proposed national 
park would have no hunting, and that he would propose opening 
up land outside the park that they continue to own for some 
sort of recreational activity, including hunting.
    I would remind everyone in this room and those listening 
that that land was always open to hunting and it was not a gift 
or any kind of expansion of opportunity. All of that 
opportunity was taken away. We have been given back small 
little piecemeal opportunities.
    The Chairman. So, Mr. Meyers, if I could----
    Mr. Trahan. If I could add just one last thing. It is 
extremely important. There is a national push going on by 
groups like the National Humane Society of the United States to 
ban lead on Federal lands, and we have no control on bans on 
lead no matter where it is on Federal land. That is being 
controlled by you folks in Congress and the Administration.
    The Chairman. That is a problem with only hunting and 
fishing. But the National Park Service has been good about 
banning water bottles. They allow Coke cans but not water 
bottles.
    Mr. Meyers, if I could ask the same thing. Once again, the 
issue in my state is designating these trails so that once it 
is designated they will not arbitrarily and capriciously take 
them off and not have any other replacement. I am insisting 
that they have to have at least some replacement value.
    Can you tell me the relationship you had between snowmobile 
owners and the private landowners prior to all this?
    Mr. Meyers. Well, as I mentioned originally, Mr. Chairman, 
95 percent of our trail system is on private land in the state. 
Basically, our clubs go out and talk to landowners and obtain 
permission. Very few of those trails are permanent because the 
landowners need changes if they have a logging operation going 
on or something happens. They work with the clubs and re-route 
the trails.
    The importance for us is getting from point A to point B. 
In this case in particular, the Katahdin region is a very 
popular snowmobiling area. People travel up from the south, 
from the west, from the north, and the important thing is the 
continuity of the trail system. If we had the National Park 
Service come in and just randomly decide to shut down a trail, 
all we need to lose is a quarter of a mile and we are shut 
down.
    The Chairman. Got it.
    Mr. Westerman.
    Mr. Westerman. Thank you again, Mr. Chairman.
    I want to go back to Mr. Trahan. You mentioned the Forest 
Practices Act. I assume that is a statewide act that sets 
standards for forest management?
    Mr. Trahan. Yes. I am very familiar with the Forest 
Practices Act. I was a logger for 32 years. I remain a logger 
part time. After the spruce budworm problem that we had, the 
legislature and the governor at the time, Angus King, felt it 
was time to put tougher regulations on forestry. That was 
adopted and I followed the Forestry Practices Act, like many of 
the people in this room, and we are doing a fine job of 
managing our forests today.
    Mr. Westerman. I noticed in studying up on Maine forests 
that most of them are either Council or SSI certified, and 
there are tree farms here. There are certification programs in 
place that ensure, or do the best job they can ensuring along 
with your Forest Practices Act, that the timber is managed 
sustainably.
    Could you elaborate a little bit, from a wildlife 
perspective, on the importance of habitat management to 
wildlife and what maybe early habitat does for certain kinds of 
wildlife?
    Mr. Trahan. Yes, absolutely. A great point. My organization 
has concerns that under Federal ownership, particularly around 
de-wintering areas that need management, and need new growth to 
maintain our deer and other wildlife, those decisions will be 
made at a Federal level outside the state of Maine. It is our 
opinion that there are virtually no conditions where the 
wildlife habitat that we are seeing the Federal Government 
manage is better than what we do here in the state of Maine.
    Our organization has led an effort the last few years to 
change our land conservation programs to include the purchase 
of de-wintering areas, particularly in this region to help the 
deer. I don't see this as helping in any way with that effort.
    Mr. Westerman. Correct me if I am wrong, but you hunt and 
are a guide for hunting trips?
    Mr. Trahan. No, I am a guide of sorts. I take children, 
women, and disabled veterans fishing and hunting, but I do that 
on my own time. I do it on a volunteer basis.
    Mr. Westerman. OK, and do you find these working forests 
are being managed for multiple uses? I don't even know if you 
have areas here that are set aside and have no management 
practices.
    Mr. Trahan. In statute, we require traditional uses on the 
land when it is purchased. That is the best model that works in 
Maine. Conservation groups like the Nature Conservancy, the 
Heritage Trust and others, work very closely with us, and when 
lands are purchased, there is a shared piece of the land. That 
model has maintained a balance that the outdoor communities 
think is extremely important for the future of our forests.
    What we are proposing here today, it basically crushes that 
model and replaces it with a model that is one-dimensional, 
which says, ``Let's shut down the traditional uses and let's 
remake our culture and history.'' I think the most offensive 
component of this for me is that when Roxanne Quimby bought her 
lands, she came in and she squashed the culture. She evicted 
the hunters, the fishermen, the people in the camps, and then 
burnt their camps to the ground. She replaced them with her art 
types, the people who wanted to come there and bird watch. That 
is not the culture or the history of this region.
    I heard recently that Lucas said that the best way to 
maintain the history and culture of the area is to have the 
National Park Service do it. I could not disagree with that 
more. The people of that region are the best to maintain their 
history and culture.
    Mr. Westerman. We hear a lot about landscape-wide 
management and larger-scale management areas. It appears that 
this is going to be a stand-alone area that is managed 
different from everything else around it, and it might almost 
be an area that becomes avoided rather than used over time 
compared to the successful management practices that have been 
on the private lands around it and also on the large state park 
that is there.
    So, if this goes through, would you foresee more sportsmen 
activities on this property, or do you think it would limit the 
amount of space that the public had to use?
    Mr. Trahan. Absolutely, I do not see sportsmen going there 
and I think it wouldn't be that they were avoiding it. I think 
they would be pushed out of it.
    Mr. Westerman. I am out of time, Mr. Chairman. I yield 
back.
    The Chairman. Thank you. Mr. Poliquin.
    Mr. Poliquin. Thank you, Mr. Chairman.
    Mr. Sannicandro, when you met with Mr. St. Clair and Ms. 
Quimby, or representatives thereof, did you ask them about an 
idea to donate their land to the state of Maine instead of the 
Federal Government?
    Mr. Sannicandro. I can't remember if that was part of the 
conversation, no. I can't remember that. We did talk about the 
Hunt Farm parcel up there on the East Branch, and they made it 
sound as if they had never heard about that conservation 
easement before. It was interesting. It was an interesting 
dialogue.
    Mr. Poliquin. Mr. Meyers or Mr. Trahan, I will ask you the 
same question. When you met with the representatives of the 
landowners, did you talk to them about donating the land to the 
state instead of the Federal Government?
    Mr. Meyers. I have. I suggested making a donation to Baxter 
State Park, and I was told that it does not have the national 
brand that is needed to attract visitors.
    Mr. Poliquin. Mr. Trahan?
    Mr. Trahan. Yes, I stated it several times. I really only 
had one meeting with Lucas, other than an invitation to fly 
over his lands. But, yes, we have indicated, under a structure 
similar to what we use as a conservation model, that he would 
have less restriction or less opposition if he proposed 
donating it to the state of Maine. We are not opposed to people 
giving land to the state for a state park.
    Mr. Poliquin. The reason I asked you this is I want to make 
sure that what is not lost in this hearing is the tremendous 
generosity that Ms. Quimby and her family have offered to give 
this land that they rightly own to the people. It seems to me 
that that is an option, to donate to the state, and I want to 
make sure that others have expressed that and to see if their 
reaction has been anything different.
    Chairman Bishop, there has been a discussion about an 
endowment that the landowners have promised of $20 million, and 
then an additional $20 million if they can raise that money. A 
$40 million endowment to maintain the property is a big sum of 
money. However, in order to maintain this type of money in 
perpetuity, normally no more than 4 or 5 percent of the funds 
are used in any one year to make sure they do not deplete the 
principal. If you say 5 percent of $40 million, that is $2 
million per year.
    Acadia National Park, which has a very small footprint 
relative to this, if this were to become a national monument, 
has an annual operating budget of $8 million a year.
    My question to you, Mr. Chairman, given your experience 
with national monuments around the country--if, in fact, a 
Federal Government that has a $19 trillion debt and a $12 
billion backlog in the National Park Service to maintain the 
existing parks and monuments cannot fully fund the build-out 
and the maintenance of this national monument with the 
endowment alone, who gets stuck with the tab?
    The Chairman. Well, it is the taxpayers. And, yes, that $40 
million is not enough to manage it.
    Mr. Poliquin. Thank you.
    Mr. Bishop, one more question, if I may, because I think 
this is something that you have expertise in.
    If, in fact, the owners donate this land to the Federal 
Government and the President designates it a national monument, 
which he has the authority to do, is there a way for this to be 
used for a period of time of 5 years, and if it does not work 
out, can we go backwards?
    The Chairman. Theoretically, but I have never seen that 
done in practice.
    Mr. Poliquin. Mr. Bishop, one more question. The 
Antiquities Act, which we have discussed here today, was 
designated to set aside and protect small pieces of land like 
Indian burial grounds. In my office, I have introduced 
legislation such that no president, this president or any other 
president, is able to sidestep the legislative process, the 
people's representatives, and designate national monuments 
without the approval of the state legislature and the governor.
    How long will it take for this to work its way through 
Congress, and what are the chances of this becoming law?
    The Chairman. It is actually a good idea. You are not the 
first one to suggest it, but the President has vowed to veto 
any such legislation. So, if you are going to have another 
president, then it is feasible.
    Mr. Poliquin. Thank you very much. My time has expired.
    The Chairman. Let me get just a couple of very quick 
questions in here.
    Mr. Sannicandro, you have experience in this area that is 
being proposed for the national monument. To meet the criteria, 
are there any historic or prehistoric structures on the land?
    Mr. Sannicandro. I am unaware of that.
    The Chairman. OK. Is there any substantial difference 
between the natural and geological figures between this 
proposal and Baxter State Park?
    Mr. Sannicandro. What I see as the main asset to this 
proposed national monument is the East Branch of the Penobscot 
River. What is interesting about the East Branch of the 
Penobscot River is it is already held in easement. The former 
landowner, the Great Northern Nekoosa, back in 1981, gave an 
easement for the corridor. They gifted it to the state of 
Maine. The greatest asset, that waterway, in my opinion is 
already protected.
    The Chairman. Which was the intent of the original 
Antiquities Act in the first place.
    Is there anything of the proposed 80,000 acres that is more 
pristine? Is there anything that would put that on a calendar 
instead of what you have in Baxter State Park?
    Mr. Sannicandro. Well, I think you are comparing apples and 
oranges there. Grand Falls is beautiful. It is amazing. But 
again, this trip of the East Branch, which, ironically enough, 
I paddled that when Director Jarvis was up here, is a difficult 
paddle. You are not going to have 300,000 people paddling on 
the East Branch.
    The Chairman. It seems to me that if this was to going to 
become a national park, the main purpose would be a park that 
is established to look at a state park. Other than that, I 
don't find something necessarily that is truly unique about 
having to use the Antiquities Act for this particular area. Am 
I wrong with that?
    Mr. Sannicandro. Baxter State Park, which has preserved 
Mount Katahdin, or Katahdin since 1931, is your greatest 
geologic feature in the area. It is already being preserved.
    The Chairman. You can't see it from this other land, can 
you?
    Mr. Sannicandro. Oh, you can see it.
    The Chairman. You can? All right.
    Mr. Sannicandro. In fact, that view shed is what is being 
promoted. You can see it from Utah.
    The Chairman. You are only 5,000 feet.
    Mr. Meyers, you did an FOIA request. Have you ever received 
anything about your FOIA request?
    Mr. Meyers. I filed an FOIA request with the White House 
Counsel on Environmental Quality on November 13. I got a 
response about a week later saying they were working on it, and 
then nothing. In late March, when Representative Poliquin and I 
met with the counsel, we asked about it and we were told they 
would look into it. Several weeks later, I received an email 
saying that it was in process, and then a couple of days later 
I got an email saying it had got lost somehow in the system. 
Since then, I have been told I will receive the information I 
requested on July 29. I don't know what is so special about 
that day or how they can pinpoint it so accurately.
    The Chairman. It is after both conventions.
    Mr. Meyers. That is right. July 29, that is the day we are 
waiting for.
    The Chairman. If I can get a copy of that, I would like it.
    I was originally told you went to the Department of the 
Interior. I was going to say that is useless because DOI has to 
say they don't know anything about it, by law. If they say they 
know something about it, it triggers NEPA.
    Mr. Meyers. I did file an FOIA request and I did get a 
response. Basically, it was mostly about scheduling meetings 
with Lucas St. Clair, who apparently is pretty notorious for 
not making meetings on time. So, I received nothing of 
substance other than emails discussing when they might possibly 
change a meeting date.
    The Chairman. Thank you. With that, I appreciate the 
witnesses all being here. Your testimony will be included in 
the record.
    I would also like to say, since we are going to bring this 
to a close, that if there are any additional questions we may 
have to ask of you, our hearing record is kept open for 10 days 
and we would ask you to respond to that. If there is anything 
in addition you want to add to that, you have 10 days after the 
end of this meeting also to add that as far as the hearing 
record is concerned.
    With that, I appreciate you coming here, I appreciate you 
going through this. This is one of those significant issues in 
which, from my past experience with national monuments in Utah, 
you need to get these questions answered first, like what will 
the access be, what will the roads be, will there be active 
forest management or not, and that better take place before the 
designation because it does not happen afterwards.
    The only advantage you have is whatever is designated by a 
president is not sacrosanct. It can be repealed or changed by 
any Congress. It can also be repealed or changed by any future 
president. So, there is nothing that is permanent about it. It 
just happens to, unfortunately, kind of limp along on its way 
and there are problems. We have had problems in our area. Make 
sure the questions are answered ahead of time before you allow 
any kind of designation to go forward. It becomes essential.
    With that, I appreciate all of you being here. I appreciate 
your kindness and your courtesy in this particular hearing. I 
would like to give the microphone to Mr. Westerman for one 
quick closing comment.
    Mr. Westerman. Thank you again, Mr. Chairman.
    As I listen to the testimony and as I leave here today, 
there is one question that I have in my mind. Maybe this is a 
rhetorical question for everyone, but if somebody owns the land 
and they want to give it away, that is their prerogative to do 
that. But from a Federal Government standpoint, why would we 
want to own this land? The land right now is self-sustaining. 
We have heard testimony that there will be a $40 million 
endowment set up to generate maybe $2 million a year to manage 
this property that right now requires no extra fees to be 
managed. So that tells you that something is going to change 
about this property that is going to make it more of a 
liability than an asset. It will make it different from all the 
property around it.
    As I leave here and consider this, my question is why would 
the Federal Government want to take on a liability and change a 
culture and a way of life when something has already been 
successful in the way it is managed and would be different from 
everything around it?
    The Chairman. All right, thank you.
    If there is a right way and a wrong way to do something, 
let's try to do it the right way and get it worked out ahead of 
time.
    With that, I appreciate your patience. I appreciate 
everything.
    Remember, there are comment papers in the back if you would 
like to leave those comments, with an appreciation for your 
kindness and hospitality in having us here.
    Representative Poliquin, I want to thank you for inviting 
us up here to deal with this particular issue in your district.
    With that, this hearing is adjourned.

    [Whereupon, at 3:32 p.m., the committee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    --  Comments submitted for the record from members of the 
            public and attendees at the field hearing.

                                 <all>
</pre></body></html>
